<html>
<title> - U.S.-CARIBBEAN BORDER: OPEN ROAD FOR DRUG TRAFFICKERS AND TERRORISTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  U.S.-CARIBBEAN BORDER: OPEN ROAD FOR DRUG TRAFFICKERS AND TERRORISTS

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,

                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2012

                               __________

                           Serial No. 112-100

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-507                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

                               WITNESSES
                                Panel I

Honorable Luis G. Fortuno, Governor, Commonwealth of Puerto Rico:
  Oral Statement.................................................    20
  Prepared Statement.............................................    29

                                Panel II

Rear Admiral William D. Lee, Deputy for Operations Policy and 
  Capabilities, U.S. Coast Guard, Department of Homeland 
  Security; Janice Ayala, Assistant Director for Operations, 
  Immigration and Customs Enforcement, Department of Homeland 
  Security; Kevin McAleenan, Acting Assistant Commissioner, 
  Office of Field Operations, Customs and Border Protection, 
  Department of Homeland Security; and Michael C. Kostelnik, 
  Assistant Commissioner, Office of CBP Air and Marine, Customs 
  and Border Protection, Department of Homeland Security:
  Joint Prepared Statement.......................................    60

                             FOR THE RECORD

The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management:
  Statement of John P. deJongh, Jr., Governor, United States 
    Virgin 
    Islands......................................................    10
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Letter From Hon. Marco Rubio...................................    14
  Statement of Mayor Jorge Santini Padilla, San Juan, Puerto Rico    15
  Letter From Luis G. Romero.....................................    18
  Meeting Timeline and Letter Summary From Governor Fortuno......    45
  Letter From Governors to President Obama.......................    51


  U.S.-CARIBBEAN BORDER: OPEN ROAD FOR DRUG TRAFFICKERS AND TERRORISTS

                              ----------                              


                        Thursday, June 21, 2012

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Bilirakis, Long, Marino, 
Keating, Davis, and Thompson (ex officio).
    Also present: Delegate Christensen and Resident 
Commissioner Pierluisi.
    Mr. McCaul. The committee will come to order. The purpose 
of this hearing is to examine the vulnerability of the U.S.-
Caribbean Border.
    Before I begin my opening statement, I see the Resident 
Commissioner of Puerto Rico, Mr. Pedro Pierluisi, is here, and 
my colleague on the Ethics Committee as well, and Ms. Donna 
Christensen from the United States Virgin Islands is here as 
well. I ask for unanimous consent that they be allowed to sit 
on the dais for this hearing today.
    Hearing no objection, so ordered.
    I now recognize myself for an opening statement. Right now 
somewhere on the streets of New York, Miami, or maybe a few 
blocks away from where we sit in Washington, drug dealers are 
selling cocaine, heroin, or marijuana. These drugs entered the 
United States through a wide-open back door. They didn't see it 
come across the U.S.-Mexico or Northern Border. Mr. Rodney 
Benson, intelligence chief for the Drug Enforcement Agency, 
said that larger and larger loads of both cocaine and heroin 
were transiting, now staying in Puerto Rico. Once these drugs 
are in Puerto Rico they can cross into our borders into the 
mainland.
    This Caribbean region is America's third border, an open 
door for drug traffickers and terrorists. Because Puerto Rico 
is a U.S. territory, illegal contraband that makes it to the 
island is unlikely to be subjected to further U.S. Customs 
inspections en route to the continental United States, meaning 
it is easily mailed or placed on commercial aircraft without 
inspection.
    In fiscal year 2011, 165,000 metric tons of illegal drugs 
were seized in the Caribbean, Bahamas, and Gulf of Mexico, up 
some 36 percent over 4 years. Up to 80 percent of the cocaine 
trafficked through Puerto Rico is directed to U.S. East Coast 
cities. The maritime smuggling routes widely used by 
international drug-trafficking organizations in the 1980s, the 
Miami Vice era, are utilized more and more today. These routes 
are a threat to America's National security.
    The Caribbean region is also susceptible to smuggling 
nuclear, radiological, chemical, and biological materials, and 
it could be used as a staging area for violence against the 
United States.
    In 1982, President Ronald Reagan said Puerto Ricans have 
borne the responsibilities of U.S. citizenship with honor and 
courage for more than 64 years. They have fought beside us for 
decades and have worked beside us for generations. President 
Reagan added that Puerto Rico's strong tradition of democracy 
provides leadership and stability for the Caribbean.
    These statements also apply to the U.S. Virgin Islands. 
Today, that stability and the millions of American citizens in 
the region are under siege. We have some maps to demonstrate 
the region that I am referring to. Puerto Rico and the U.S. 
Virgin Islands' close proximity to the continental United 
States and their lack of effective security infrastructures 
make them an appealing gateway for drug cartels.
    The Caribbean region is also experiencing an escalation in 
trafficking in persons and firearms, as well as money 
laundering. As these networks and drug routes evolve, so do the 
potential links to terrorism and transnational crime. On 
average, 1 person is murdered on the island every 7.5 hours, 
and at least half of those murders involve drug-trafficking 
organizations. Last year, there were 30 homicides for every 
100,000 Puerto Ricans. This rate is far higher than any State 
in the mainland.
    Drug shipments from locations, including Haiti, Colombia, 
Venezuela, and the Dominican Republic, are transported to the 
islands on-board these fast boats and submersibles. Cargo is 
then dropped at obscure port locations or just simply unloaded 
in the water and flagged for later pickup. These locations are 
so remote that it can take Federal law enforcement officers 
hours to reach them.
    The Caribbean region drug-trafficking organizations have 
proved flexible, adaptable, and can change routes quickly. The 
U.S. Postal Inspection Service seized hundreds of weapons 
hidden in packages postmarked for Puerto Rico, including 
assault rifles, AK-47s, AR-15s, armor-penetrating cop-killer 
bullets. On June 6, 2012, the Drug Enforcement Agency arrested 
36 people in a drug-trafficking ring that used Puerto Rico's 
international airport in San Juan to smuggle large quantities 
of cocaine off the island aboard U.S.-bound passenger flights. 
From San Juan, drugs were then flown to Miami, Orlando, and 
Newark. The drug ring had operated for 10 years inside the San 
Juan airport.
    The Caribbean region has also had an active black market 
selling fraudulent documents. According to the Department of 
State, 40 percent of identity fraud in the United States 
involved birth certificates from Puerto Rico. In January, 50 
people were charged with conspiring to sell the identities of 
hundreds of Puerto Ricans to illegal immigrants on the American 
mainland. This was the largest single fraud case uncovered by 
Immigration and Customs Enforcement. Hundreds of birth 
certificates, Social Security numbers, and driver's licenses 
were sold for up to $2,500 a set.
    James Clapper, the Director of National Intelligence, 
recently testified that terrorists and insurgents will 
increasingly turn to crime and criminal networks for funding 
and logistics. Criminal connections and activities of Hezbollah 
and al-Qaeda and the Islamic Maghreb illustrate this trend. 
These criminal networks in the region could potentially be 
exploited by terrorists seeking to do us harm inside our 
borders.
    This type of exploitation was evidenced in the thwarted 
plot to kill the Saudi ambassador in Washington. The Iranian 
Qods Force attempted to solicit a Mexican drug cartel member to 
carry out this assassination plot.
    With slide 5, we see, look at the connection between 
President Ahmadinejad and Chavez in Venezuela. Iran and the 
Bolivian states, Venezuela, Bolivia, Ecuador, and Nicaragua are 
major drug producers. They bring a new set of threats to the 
Western Hemisphere as they work together with transnational 
organized crime enterprises and terrorist groups. These threats 
include the potential for weapons of mass destruction-related 
trafficking.
    The American flag has flown over Puerto Rico for more than 
a century. The people of the U.S. Virgin Islands have been 
American citizens for a long time. These islands are American 
soil, and our fellow American citizens need our support now. 
With that, the Chairman now recognizes the Ranking Member.
    [The statement of Mr. McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             June 21, 2012
    Right now, somewhere on the streets of New York, Miami, or maybe a 
few blocks away from where we sit in Washington, drug dealers are 
selling cocaine, heroin, or marijuana. These drugs entered the United 
States through a wide-open back door.
    They didn't come across the U.S.-Mexico or Northern Border. Mr. 
Rodney Benson, Intelligence Chief for the Drug Enforcement Agency, said 
that larger and larger loads of both cocaine and heroin were 
transiting, and now staying, in Puerto Rico. Once these drugs are in 
Puerto Rico, they have crossed our borders.
    This Caribbean region is America's ``Third Border;'' an open door 
for drug traffickers and terrorists.
    Because Puerto Rico is a U.S. Territory, illegal contraband that 
makes it to the island is unlikely to be subjected to further U.S. 
Customs inspections en route to the continental United States, meaning 
it is easily mailed or placed on commercial aircraft without suspicion.
    In fiscal year 2011, 165,000 metric tons of illegal drugs were 
seized in the Caribbean, Bahamas, and Gulf of Mexico, up 36% over 4 
years. Up to 80% of cocaine trafficked through Puerto Rico is directed 
to U.S. East Coast cities.
    The maritime smuggling routes widely used by international drug 
trafficking organizations in the 1980's, the ``Miami Vice Era'', are 
utilized more and more today.
    These routes are a threat to America's National security. The 
Caribbean region is also susceptible to smuggling nuclear, 
radiological, chemical, and biological materials, and it could easily 
be used as staging areas for violence against the United States.
    In 1982, President Ronald Reagan said, ``Puerto Ricans have borne 
the responsibilities of U.S. citizenship with honor and courage for 
more than 64 years. They have fought beside us for decades and have 
worked beside us for generations.'' President Reagan added that Puerto 
Rico's ``strong tradition of democracy provides leadership and 
stability'' for the Caribbean. These statements also apply to the U.S. 
Virgin Islands.
    Today that stability and the millions of American citizens in the 
region are under siege. Puerto Rico and the U.S. Virgin Islands' close 
proximity to the continental United States and their lack of effective 
security infrastructures make them an appealing gateway for drug 
cartels.
    The Caribbean region is also experiencing an escalation in 
trafficking of persons and firearms, as well as money laundering. As 
these networks and drug routes evolve so do the potential links to 
terrorism and transnational crime.
    On average 1 person is murdered on the islands every 7.5 hours, and 
at least half of those murders involve drug trafficking organizations. 
Last year there were 30 homicides for every 100,000 Puerto Ricans. This 
rate is far higher than any State in the mainland.
    Drug shipments from locations including Haiti, Colombia, Venezuela, 
and the Dominican Republic are transported to the islands on board 
``fast boats'' and submersibles. Cargo is then dropped at obscure port 
locations or just simply unloaded into the water and flagged for later 
pick up. These locations are so remote that it can take Federal law 
enforcement officers hours to reach them.
    The Caribbean region Drug Trafficking Organizations have proven 
flexible, adaptable, and can change routes quickly. The U.S. Postal 
Inspection Service seized hundreds of weapons hidden in packages 
postmarked for Puerto Rico including assault rifles, AK-47s, AR-15s, 
and armor-penetrating ``cop-killer'' bullets.
    On June 6, 2012 the Drug Enforcement Agency arrested 36 people in a 
drug-trafficking ring that used Puerto Rico's International Airport in 
San Juan to smuggle large quantities of cocaine off the island aboard 
U.S.-bound passenger flights. From San Juan, drugs were flown to Miami, 
Orlando, and Newark. The drug ring had been operating for 10 years 
inside the San Juan airport.
    The Caribbean region also has an active black market selling 
fraudulent documents. According to the Department of State 40 percent 
of identity fraud in the United States involved birth certificates from 
Puerto Rico.
    In January, 50 people were charged with conspiring to sell the 
identities of hundreds of Puerto Ricans to illegal immigrants on the 
American mainland. This was the largest single fraud case uncovered by 
Immigration and Customs Enforcement. Hundreds of birth certificates, 
social security numbers, and driver's licenses were sold for up to 
$2,500 a set.
    James Clapper, Director of National Intelligence, recently 
testified, ``terrorists and insurgents will increasingly turn to crime 
and criminal networks for funding and logistics . . . Criminal 
connections and activities of Hezbollah and al-Qaeda in the Islamic 
Maghreb illustrate this trend.''
    These criminal networks in the region could potentially be 
exploited by terrorists seeking to do us harm inside our borders. This 
type of exploitation was evidenced in the thwarted plot to kill the 
Saudi Ambassador in Washington. The Iranian Quds Force attempted to 
solicit a Mexican Drug Cartel member to carry out the assassination.
    Iran and the Bolivarian states--(Venezuela, Bolivia, Ecuador, and 
Nicaragua)--which are major drug producers--bring a dangerous new set 
of threats to the Western Hemisphere as they work together with 
transnational organized crime enterprises and terrorist groups. This 
threat includes the potential for weapons of mass destruction-related 
trafficking.
    These activities are carried out with the participation of regional 
state actors who have publicly articulated a doctrine of asymmetrical 
warfare against the United States and its allies explicitly endorsing 
the use of weapons of mass destruction.
    This is not a regional problem that won't reach our shores--these 
are our shores.
    Earlier this month, the Attorney General was asked why the Office 
of National Drug Control Policy has a Southwest and Northern Border 
counternarcotics strategy but does not have a Caribbean Border 
counternarcotics strategy. Attorney General Holder's response was, 
``when one looks at the Caribbean, Puerto Rico in particular, I think 
we need a strategy. We have a task force on Puerto Rico that the 
Associate Attorney General is co-chair of. I think to the extent it is 
not explicit, we should develop such a plan.''
    Without a comprehensive strategy to counter the cartels increasing 
presence in the Caribbean, the region could continue to spiral out of 
control.
    The American flag has flown over Puerto Rico for more than a 
century. The people of the U.S. Virgin Islands have been American 
citizens for almost as long. These islands are American soil, and our 
fellow American citizens need our support now. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Keating. Thank you, Chairman McCaul, for convening 
today's hearing.
    Thank you, Ranking Member Thompson, for joining us.
    As a former district attorney in Massachusetts, I witnessed 
first-hand the devastating effects of drug-related crimes and 
violence on entire families, communities, nations, and for the 
purposes of this hearing, commonwealths and States as well. In 
Massachusetts, 1.7 people die per day from opiate-related 
overdoses. With each new drug parcel crossing into our borders, 
hundreds more individuals will become addicted.
    For this reason, it is important to understand that the 
drug trade has a global reach. Often in the media, on this 
committee and even in the administration, there is a heavy 
focus on immediate borders to the north and of course to the 
south. The truth is that there is no distance too far or hurdle 
too high for drug traffickers. While supply and demand for 
drugs remains steady, the ingenuity and wealth of smugglers 
increase, and the Federal dollars to fight this phenomenal 
enterprise decrease. Yet whether you are in Bourne, 
Massachusetts, San Juan, Puerto Rico, Juarez, Mexico, Praia, 
Cape Verde, the face of despair following the loss of a loved 
one to drug violence or addiction remains the same.
    For this reason, I welcome this hearing's focus away from 
the usual association between drugs and the Southwest Border. 
The Caribbean is home to two U.S. territories, Puerto Rico and 
U.S. Virgin Islands. This is not an issue affecting a foreign 
nation. It is, instead, one that has significant consequences 
for the 4 million American citizens who live in Puerto Rico and 
the nearly 110,000 that live in the U.S. Virgin Islands. This 
is an issue that requires a comprehensive strategy, yet the 
homeland security resources, equipment, and personnel that are 
deployed to those areas are not on a par with the other parts 
of the United States with less challenging circumstances.
    It is often noted that the main point of entry for drugs 
into the United States is through the Central American 
corridor, not the Caribbean-Florida corridor, yet the resources 
dedicated to Miami, the entry point from the Caribbean, far 
outweigh what is deployed in Puerto Rico. For example, there 
are currently twice as many ICE Homeland Security investigation 
agents in Miami than in Puerto Rico. There are almost five 
times the number of Customs and Border Patrol field operation 
officers assigned to Miami than Puerto Rico. Although the Coast 
Guard interdicted over 1,700 pounds of cocaine in Puerto Rico 
from January 2009 until August 2011 and none in Miami during 
this same time frame, the Coast Guard office in San Juan has to 
rely on assets from Miami to reinforce their fleet. Moreover, 
Miami has a population of 400,000, while Puerto Rico has a 
population of nearly 4 million. Certainly the efforts 
undertaken in Miami are laudable. But for comparison sake, this 
disparity clearly shows that Puerto Rico lacks the Federal 
attention warranted by the crime rate, the population, and the 
drug trade.
    On the commonwealth level, I am concerned about the 
allegations of widespread systemic corruption and abuse 
occurring in the Puerto Rican police department. According to 
scathing 143-page findings letter by the Department of Justice, 
it is, ``an agency in profound disrepair.'' Furthermore, recent 
reports as recent as last Tuesday, as a follow-up to the DOJ 
investigation, indicated that, ``These abuses did not represent 
isolated incidents or aberrant behavior by a few rogue 
officers.'' It is rather, ``pervasive and systematic, and it is 
island-wide, and it is on-going.''
    Yet Federal agents, through numerous Caribbean-based task 
force and interagency agreements have to work in partnership 
with the Puerto Rican police department and their officers in 
matters affecting our homeland security. I am therefore 
interested in hearing from him and how he intends to work with 
the Federal counterparts to ease some of the issues of the 
Puerto Rican police department when we have our witnesses.
    Finally, I understand that a focus on the drug trade in the 
Caribbean may be confusing for some given the need for 
resources in our communities at home to fight the same 
problems. That being said, today's hearing and others like it 
that look into the trade routes in other areas, like West 
Africa, are needed to adequately combat drug violence and 
addiction.
    I thank the witnesses for their attendance. I look forward 
to hearing from both panels on how to increase our efforts and 
better position the safety and security of Puerto Rico and the 
Virgin Islands.
    [The statement of Mr. Keating follows:]
             Statement of Ranking Member William R. Keating
                             June 21, 2012
    As the former District Attorney for Norfolk County in 
Massachusetts, I have witnessed first-hand the devastating effects of 
drug-related crimes and violence on entire families, communities, 
nations, and for the purpose of this hearing, commonwealths, as well.
    In Massachusetts, 1.7 people die per day from opiate-related 
overdoses.
    And, with each new drug parcel crossing into our borders, hundreds 
more people will become addicted.
    For this reason, it is important to understand that the drug trade 
has a global reach.
    Often in the media, on this committee, and even in the 
administration, there is a heavy focus on our immediate borders to the 
north and of course, to the south.
    The truth is that there is no distance too far or hurdle too high 
for drug traffickers.
    While supply and demand for drugs remains steady, the ingenuity and 
wealth of smugglers increase and Federal dollars to fight this 
phenomenon decrease.
    Yet, whether you are in Bourne, Massachusetts; San Juan, Puerto 
Rico; Juarez, Mexico; or Praia, Cape Verde, the face of despair 
following the loss of a loved one to drug violence or addiction remains 
the same.
    For this reason, I welcome this hearing's stray away from the usual 
association between drugs and the Southwest Border.
    The Caribbean is home to two U.S. territories: Puerto Rico and the 
U.S. Virgin Islands.
    This is not an issue affecting a foreign nation, it is instead, one 
that has significant consequences for the 4 million American citizens 
that live in Puerto Rico and the nearly 110,000 that live in the U.S. 
Virgin Islands.
    This is an issue that requires a comprehensive strategy.
    Yet, the homeland security resources, equipment, and personnel that 
are deployed to those areas are not on par with other parts of the 
United States with less challenging circumstances.
    It is often noted that the main point of entry for drugs into the 
United States is through the Central American corridor, not the 
Caribbean-Florida corridor; yet the resources dedicated to Miami, the 
entry point from the Caribbean, far outweigh what is deployed in Puerto 
Rico.
    For example, there are currently twice as many ICE Homeland 
Security Investigations agents in Miami than Puerto Rico.
    There are almost five times the number of CBP Office of Field 
Operations officers assigned to Miami than Puerto Rico.
    Although the Coast Guard interdicted over 1,700 pounds of cocaine 
in Puerto Rico from January 2009 and August 2011 and none in Miami 
during that same time frame, the Coast Guard Office in San Juan, has to 
rely on assets from Miami to reinforce their fleet.
    Moreover, Miami has a population of 400,000 while Puerto Rico has a 
population of nearly 4 million.
    Certainly, the efforts undertaken in Miami are laudable, but for 
comparison's sake, this disparity clearly shows that Puerto Rico lacks 
the Federal attention warranted by its crime rate, population, and drug 
trade.
    On the commonwealth level, I am concerned about the allegations of 
wide-spread systemic corruption and abuse occurring in the Puerto Rico 
Police Department.
    According to a scathing 143-page findings letter by the Department 
of Justice, it ``is an agency in profound disrepair.''
    Furthermore, a report released by the ACLU on Tuesday, as a follow-
up to the DOJ investigation indicated that ``these abuses do not 
represent isolated incidents or aberrant behavior by a few rogue 
officers.'' Rather it is ``pervasive and systemic, island-wide and on-
going.''
    Yet, Federal agents, through numerous Caribbean-based task forces 
and interagency agreements, have to work in partnership with PRPD 
officers in matters affecting our homeland security.
    The Governor of Puerto Rico has ultimate authority over the PRPD, 
is responsible for appointing a Superintendent to administer the PRPD, 
and approves appointments to senior positions in the PRPD, from 
Inspectors to Colonels. I am therefore interested in hearing from him 
on how he intends work with his Federal counterparts to ease some of 
the issues in the PRPD.
    Finally, I understand that a focus on the drug trade in the 
Caribbean may be confusing for some, given the need for resources in 
our communities at home to fight the same problems. That being said, 
today's hearing and others like it that look into trade routes in other 
areas, like West Africa, are needed to adequately combat drug violence 
and addiction.
    I thank the witnesses for their attendance and look forward to 
hearing from both panels on how to increase our efforts and better 
position the safety and security of Puerto Rico and the U.S. Virgin 
Islands.

    Mr. Keating. Mr. Chairman, furthermore, Governor John 
deJongh of the U.S. Virgin Islands was invited to testify today 
alongside Governor Fortuno. However, because of his other 
commitments, he wasn't able to attend. I have in my possession 
a record testimony that he would like to submit. I would like 
to ask unanimous consent that this be placed in the record.
    Mr. McCaul. Without objection, so ordered.
    [The information follows:]
  Statement of John P. de Jongh, Jr., Governor, United States Virgin 
                                Islands
                             June 21, 2012
    I extend my appreciation to Subcommittee Chairman McCaul and 
Ranking Member Keating, as well as the full committee Chairman Peter 
King and Ranking Member Bennie Thompson, for conducting this hearing to 
examine the epidemic of guns and drugs flowing through America's open 
border in the Caribbean. While we sit more than 1,000 miles south of 
Miami, the U.S. Virgin Islands and Puerto Rico are at the front lines 
of this crisis. We are outgunned, underfinanced, and outmanned by the 
cartels.
    The Federal response so far has been inadequate, underfunded, and 
slow. The major drug cartels have targeted our islands because our 
borders are largely unprotected and our mail is typically uninspected. 
Weaponry is being smuggled into the territories from the United States 
and elsewhere on commercial aircraft, and in cargo vessels, fast boats, 
and the U.S. mail. Illegal drugs intended for American cities and towns 
are being transshipped through our territories, bringing into our 
society the corrosive elements of organized crime, corruption, and 
violence. Our corrections system is overwhelmed with deportable 
offenders. And, the cartels have developed their own system of 
enforcement and intelligence in the territories, which has contributed 
to a pervasive climate of fear and intimidation in some of our 
neighborhoods.
    The drug trade and associated illegal activities have fueled a 
phenomenon of heavily armed and violent youth, whose competing gangs 
are steeped in greed, anger, and a disregard for our culture and 
societal norms. Our Virgin Islands Police Department must now be ready 
to confront children armed and willing to use automatic weapons.
    This year, our territory is again on pace to record a homicide rate 
among the highest in the Nation, and many of the victims of this drug-
fueled violence are young people. This epidemic is eroding our unique 
and open culture, is undermining our main economic engine, and is 
negatively impacting our business development efforts. It will not stop 
until the U.S. Department of Homeland Security, the U.S. Department of 
Justice, and their related agencies exhibit the same urgency, and the 
same commitment of planning and resources that are being dedicated to 
the Southwestern and Northern Borders of the United States and to other 
countries in the Caribbean region.
    We know from the statistics compiled by the High Intensity Drug 
Trafficking Area (HIDTA) Task Force based in Puerto Rico, over 30% of 
the illicit drugs entering the United States are coming through the 
Caribbean. America's successful response to drug trafficking in the 
Southwestern and Northern Borders has resulted in traffickers detouring 
through our Caribbean region. The U.S. Virgin Islands has more than 100 
miles of coastline and covers more than 600 square miles, of which 70% 
is water. The cartels have realized that the types of Federal drug-
fighting assets being utilized on the Southwestern Border are non-
existent in these open waters and numerous small islets within the U.S. 
Virgin Islands. These narco-terrorists are entering through the wide-
open doors of the Caribbean, creating local networks for storing, 
protecting, and transshipping tens of millions of dollars in illegal 
guns and drugs. They are infiltrating our territory with fast boats 
loaded with tons of cocaine. Once inside the U.S. Virgin Islands, the 
drugs are either ferried to gateway cities such as Miami, New York, 
Charlotte, Boston, Atlanta, Newark, Chicago, Philadelphia, Fort 
Lauderdale, and Washington, DC, or simply packaged and mailed through 
the U.S. Postal Service or one of the other package companies. The 
weapons and human smugglers believe that they can operate with similar 
impunity within the United States Virgin Islands.
    A few weeks ago, a fast boat smuggling drugs into the United States 
was observed as it approached the island of St. Croix. The boat crew, 
aware of detection, dumped tons of cocaine into the ocean and sped 
away. Over $25 million in cocaine was retrieved, but the criminals 
eluded capture because we do not have the necessary air and sea 
resources of the U.S. Coast Guard and Border Patrol in the territory. 
That example of rare interdiction is a drop in the bucket of what 
probably enters the United States unhindered through our waters and 
ports.
    While the great majority of drugs most likely pass through our 
borders without notice, the major seizures executed over the past 2 
years by the Virgin Islands High Intensity Drug Trafficking Area 
(HIDTA) Task Force suggest a substantial amount of cocaine, heroin, and 
marijuana being trafficked through the islands of St. Thomas, St. John, 
and St. Croix. In 2011 alone, HIDTA seized more than 100 times the 
amount of cocaine on St. Croix than it had seized the previous year.
    Four years ago, the House Homeland Security Committee, under the 
Chairmanship of Representative Thompson, undertook a fact-finding 
mission to the U.S. Virgin Islands to see first-hand our open ocean, 
our miles of unprotected borders, and our close proximity to our 
neighbors. They heard from our local and Federal law enforcement 
officers who vividly described the deleterious impact of the flow of 
illegal guns, illegal drugs, and illegal immigrants on our community. 
This committee lent its voice to our effort to obtain a Federal Border 
Patrol Unit, an initiative ultimately rejected by our Federal partners. 
In the ensuing years since the committee's visit, the problem has 
gotten worse, not better.
    I am honored, therefore, to join with Governor Fortuno of Puerto 
Rico and other Governors of southern and eastern States in calling for 
the creation of a Caribbean Border Initiative, under the Office of 
National Drug Control Policy. This is not simply a Puerto Rico and 
Virgin Islands drug and violence problem. It is a National crisis that 
is the result of our success elsewhere, and our failure to secure 
access to U.S. territories against infiltration by these ever-expanding 
international drug syndicates. America's Caribbean communities need the 
kind of high-level engagement, coordination, and resource availability 
that has aided the defense of our Southwestern and Northern Borders. 
The Obama administration has launched a Caribbean Basin Security 
Initiative focused on strengthening law enforcement and drug-fighting 
capabilities in the region, however, neither the U.S. Virgin Islands 
nor Puerto Rico have been included in the development or execution of 
this initiative. They are also unable to access any of the initiative's 
funding to strengthen their law enforcement assets. We view the 
Caribbean Border Initiative as a vehicle to ensure Federal 
coordination, access to resources, and the kind of U.S. commitment that 
will successfully complement the Caribbean Basin Security Initiative 
and not just shove the dilemma to another part of the Caribbean region.
    Congressional oversight and funding are critical to victory in the 
Caribbean anti-drug effort. Because we are under-represented in 
Congress and we are not a State, our fate is often controlled by 
Federal bureaucrats who sometimes focus more on convenience and cost-
cutting, rather than effectively fighting and winning this specific 
war. The results are glaring.
    For example, the U.S. Coast Guard does not have a single Coast 
Guard cutter permanently positioned in the Virgin Islands and no 
Federal agency has air assets stationed in the territory for law 
enforcement purposes. The ATF does not currently have an active 
presence in the Virgin Islands, and even the U.S. Postal Service 
shuttered its local inspection operation. And for those agencies that 
do have a presence here such as CBP, ICE, DEA, and Coast Guard, their 
staffing levels and funding remain far below their State-side 
counterparts.
    My hope is that this hearing will result in the Department of 
Homeland Security and the Department of Justice regaining the resolve 
to fight this battle with the necessary resources to win.
    The people of the U.S. Virgin Islands are among the most patriotic 
and proud Americans. Our enlistment rate in the Armed Forces is among 
the highest in the Nation. Even before we were a U.S. territory, Virgin 
Islanders exhibited this kind of patriotism--a Virgin Islander 
commanded troops at the Battle of Yorktown. Virgin Islanders have 
fought and died in every war of the 20th Century, up to and including 
the War on Terror. We are proud of our contributions to the Nation.
    Although we are not a State, we have every reason to expect that 
our territory will be defended by the United States against its 
enemies. The incursion of illegal guns, illegal drugs, and illegal 
immigrants is at present the greatest threat to our community. I hope 
that this committee will help lead a more robust and effective response 
to this threat against our way of life.

    Mr. Keating. Thank you.
    Mr. McCaul. The Chairman now recognizes the Ranking Member 
of the full committee, Mr. Thompson, for his statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. I would 
like to welcome the Governor to this committee. Over the past 
decade, seemingly as a result of the United States 
counternarcotics efforts in Mexico and Central America, the 
Caribbean region has become a key transshipment point for drugs 
flowing into the United States. Unfortunately, two U.S. 
territories, Puerto Rico and the U.S. Virgin Islands, have 
become attractive targets for drug traffickers, and placed the 
safety and security of U.S. citizens at risk. The Department of 
Homeland Security, through the U.S. Coast Guard, the U.S. 
Customs and Border Protection, and the Immigration and Customs 
Enforcement, plays a vital role in the Caribbean by protecting 
our borders and securing the maritime environment. However, by 
many accounts recent budget cuts, aging equipment, and a lack 
of a Caribbean Border Counternarcotics Strategy, similar to the 
existing Southwest Border and Northern Border Counternarcotics 
Strategy, have resulted in inadequate DHS resources in Puerto 
Rico and the U.S. Virgin Islands. Furthermore, for years I have 
monitored vacancy rates at the Department and urged the 
Secretary to fill vacant positions that bear a direct role on 
security. I was disheartened to learn that 15 percent of ICE's 
authorized positions in Puerto Rico are unfilled, and a 
critical CBP Air and Marine Office in San Juan was closed due 
to budget shortfalls. These are Federal resources that Puerto 
Rico needs, and I urge the Secretary to fill these gaps. In the 
mean time, however, Puerto Rico has benefit of having the 
second-largest police department in the United States. The 
Puerto Rico Police Department, or PRPD, has 17,000 police. The 
ratio of PRPD to residents is approximately 4.6 officers for 
every 1,000 residents, more than twice the U.S. National 
average. While Members of this committee and our Congressional 
colleagues work on improving DHS's sources in Puerto Rico, I 
lend my full support to this effort. I am interested in hearing 
the Governor's comments on how he is upholding this obligation 
to Puerto Rico and to remap the PRPD.
    With that, Mr. Chairman, I would like to ask unanimous 
consent to enter into the record this report referenced by the 
Ranking Member from the United States Department of Justice.
    Mr. McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The document, ``Investigation of the Puerto Rico Police 
Department,'' United States Department of Justice, Civil Rights 
Division, September 5, 2011, has been retained in committee files and 
is available at www.justice.gov/crt/about/spl/documents/
prpd_letter.pdf.
---------------------------------------------------------------------------
    Mr. Thompson. Thank you. Also I look forward to hearing 
today's testimony. I yield back the balance of my time.
    [The statement of Mr. Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 21, 2012
    Over the past decade, seemingly as a result of United States' 
counternarcotics efforts in Mexico and Central America, the Caribbean 
region has become a key transshipment point for drugs flowing into the 
United States. Unfortunately, two U.S. territories--Puerto Rico and the 
U.S. Virgin Islands--have become attractive targets for drug 
traffickers and placed the safety and security of U.S. citizens at 
risk.
    The Department of Homeland Security, through the U.S. Coast Guard, 
the U.S. Customs and Border Protection, and the Immigration and Customs 
Enforcement, plays a vital role in the Caribbean by protecting our 
borders and securing the maritime environment.
    However, by many accounts, recent budget cuts, aging equipment, and 
a lack of a Caribbean Border Counternarcotics Strategy, similar to the 
existing Southwest Border and Northern Border Counternarcotics Strategy 
have resulted in inadequate DHS resources in Puerto Rico and the U.S. 
Virgin Islands.
    Furthermore, for years I have monitored vacancy rates at the 
Department and urged the Secretary to fill vacant positions that bear a 
direct role on security. I was disheartened to learn that 15% of ICE-
authorized positions in Puerto Rico are unfilled and a critical CBP Air 
and Marine Office in San Juan was closed due to budget shortfalls. 
These are Federal resources that Puerto Rico needs and I urge the 
Secretary to fill these gaps.
    In the mean time, however, Puerto Rico has the benefit of having 
the second-largest police department in the United States. The Puerto 
Rico Police Department, or PRPD, has 17,000 police. The ratio of PRPD 
to residents is approximately 4.6 officers for every 1,000 residents, 
more than twice the U.S. National average.
    Yet, according to the U.S. Department of Justice and a report that 
was just released by the ACLU on Tuesday, the PRPD is plagued with 
police abuse, violence, and corruption. Following its extensive 
investigation, DOJ found that the PRPD officers engage in a pattern and 
practice of excessive force in violation of the Fourth Amendment, 
unreasonable force and other misconduct designed to suppress the 
exercise of protected First Amendment rights, and unlawful searches and 
seizures in violation of the Fourth Amendment.
    These findings are shocking. Moreover, the report released by the 
ACLU earlier this week corroborates these conclusions and further finds 
that in the face of the dire crime rate in Puerto Rico, rather than 
curbing the violence, the PRPD instead contributes to it.
    This is important to note and relevant to this hearing because the 
PRPD is Puerto Rico's primary law enforcement agency and in the absence 
of additional Federal resources--which I admit is needed--the PRPD is 
large enough to fill the gap created by Federal law enforcement 
shortages, if its house was in order.
    While Members of this committee and our Congressional colleagues 
work on improving DHS resources in Puerto Rico--and I lend my full 
support to this effort--I am interested in hearing from Gov. Fortuno on 
how he is upholding his obligation in Puerto Rico to revamp the PRPD.

    Mr. McCaul. I thank the Ranking Member.
    Without objection, I would also like to, by unanimous 
consent, introduce the following statements. One is a statement 
from Senator Marco Rubio commending Governor Fortuno and the 
Commissioner Pierluisi for proposing a Caribbean Border 
initiative; a statement from Mayor Jorge Santini Padilla, San 
Juan, Puerto Rico, describing the problem of drug trafficking 
in Puerto Rico; a statement from Luis Romero, president of the 
nonprofit foundation Enough is Enough, who is I believe here 
today, whose 20-year-old son was viciously murdered by a drug 
runner in Puerto Rico.
    We are so sorry for that. Thank you for being here today.
    Hearing no objection, I will enter these into the record. 
So ordered.
    [The information follows:]
                      Letter From Hon. Marco Rubio
                                     June 21, 2012.
The Honorable Michael McCaul,
Chairman, Subcommittee on Oversight, Investigations, and Management, 
        House Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Subcommittee on Oversight, Investigations, and 
        Management, House Committee on Homeland Security, H2-176 Ford 
        House Office Building, Washington, DC 20515.
    Chairman McCaul and Ranking Member Thompson: Thank you for holding 
this hearing to bring greater attention to the poor security situation 
in our Nation's Caribbean Borders. I appreciate the opportunity to 
address the subcommittee on this important issue. I ask that this 
statement be included in the record.
    Drug trafficking and associated violence affects many of our 
communities, and there might not be a better example of this situation 
than in Puerto Rico. In Puerto Rico, the combination of increased 
transit and consumption of illicit narcotics and the negative effects 
of the on-going economic recession is exposing millions of American 
citizens to levels of violence that are unheard of anywhere else in the 
United States. According to press reports, 1,136 people were murdered 
in Puerto Rico in 2011. That is more than 30 deaths per 100,000 
inhabitants, more than five times the National U.S. average. I would 
note that, according to Puerto Rican officials more than 70 percent of 
those murders are directly related to drug trafficking.
    As I pointed out at a Senate Western Hemisphere Subcommittee 
hearing earlier this year, if these levels of violence were taking 
place in any city in the continental United States, Congress and the 
administration would have been pressed into taking meaningful measures 
to end it. Peace and security in Puerto Rico is not a foreign issue, 
but a domestic responsibility of this United States.
    Our efforts to reduce illicit narcotics trafficking and its 
associated transnational criminal organizations have been aptly likened 
to squeezing a balloon--press too hard on one side and thc balloon 
expands on another direction--with the implication that 
counternarcotics efforts simply pushes traffickers into ill-equipped 
areas like Puerto Rico. The solution is to get better at fully 
coordinating and resourcing our efforts to reduce and eliminate 
transnational criminal organizations. And when it comes to a U.S. 
territory and American citizens, this coordination and resourcing needs 
to be a priority.
    As American and Colombian countemarcotics cooperation started to 
show progress in Colombia, drug traffickers began to move their 
operations to Mexico and Central America. The previous administration 
and Congress responded to these challenges by developing 
unprecedentedly close coordinating mechanisms with Mexican and Central 
American authorities and designating about $1.9 billion\1\ over the 
last decade on security assistance. The current administration's 
Central America Regional Security Initiative (CARSI) and Caribbean 
Basin Security Initiative (CBSI) added an additional $700 million and 
seek to build upon those efforts and include some of the lessons 
learned from previous experiences.
---------------------------------------------------------------------------
    \1\ Congressional Research Service Report R41215. Latin America and 
the Caribbean: Illicit Drug Trafficking and U.S. Counterdrug Programs. 
The reported CARSI figure of $466 million was increased to $496 million 
after publication of the report.
---------------------------------------------------------------------------
    Yet, none of these initiatives appear to have taken into account 
the need to be equally creative in ensuring that the inter-agency 
process includes local and State governments from U.S. territories in 
the Caribbean.
    Just a few weeks ago, on June 7th, Federal agents arrested dozens 
of airline workers and baggage handlers at Puerto Rico's busiest 
airport, targeting what authorities say are two drug-smuggling rings 
working together to move cocaine into the United States aboard 
commercial aircraft. A 2011 National Drug Intelligence Center report 
indicated that cocaine seizures in the Puerto Rico and U.S. Virgin 
Islands area increased 76 percent between 2009 and 2010.\2\ And, at an 
October 2011 Senate Western Hemisphere Subcommittee hearing on CBSI, 
Rodney Benson, Intelligence Chief, Drug Enforcement Administration 
(DEA), confirmed that larger and larger loads of both cocaine and 
heroin were transiting, and now staying, in Puerto Rico.
---------------------------------------------------------------------------
    \2\ 2011 National Drug Intelligence Center Puerto Rico/U.S. Virgin 
Islands High Intensity Drug Trafficking Area Drug Market Analysis 
Report, http://www.justice.gov/ndic/dmas/PR-VI_DMA-2011%28U%29.pdf.
---------------------------------------------------------------------------
    These and other disturbing trends should prompt this Congress and 
the administration to explore ways to make the governments of Puerto 
Rico and the U.S. Virgin Islands as full partners in the inter-agency 
process responsible for crafting and resourcing our Nation's 
counternarcotics strategy in the Caribbean. This includes taking into 
account the territories' capacity to address any threats that may stem 
from transnational criminal organizations seeking to evade 
international law enforcement efforts. I commend Puerto Rico's Resident 
Commissioner Pedro Pierluisi and Governor Luis Fortuno for their 
proposal to develop a Caribbean Border Initiative. I urge the President 
to start working on this proposal at once, and I encourage Congress to 
provide any legislative mandate necessary to achieve it.
    It is also imperative to provide any appropriate Federal support to 
Puerto Rican efforts to reform and modernize their law enforcement 
forces. Governor Fortuno has recognized the pressing need to address 
the growing challenge of illicit narcotics and has taken some promising 
steps, including several joint strike forces with Federal authorities 
that have recently been credited with making 6,000 arrests, broken up 
400 illicit drug markets, confiscated hundreds of firearms, and helped 
dismantle major crime organizations. The Governor has also committed to 
100 percent cargo inspections at the busy Port of San Juan in an effort 
to stem the traffic of illicit drugs and firearms.
    It's clear that Governor Fortuno faces an uphill struggle as he 
deals with the growing threat from drug trafficking organizations. We 
need to think more strategically about how our efforts in Mexico, 
Central America, and the Caribbean will affect U.S. territories, and 
build some measure of resiliency into those plans to ensure that the 
balloon doesn't crush Puerto Rico. In that context we must look for 
ways to increase support to Puerto Rico's beleaguered institutions.
    Today, Immigration and Customs Enforcement has 26 vacant positions 
in Puerto Rico; the Bureau of Alcohol and Firearms has 17 such 
vacancies, and the DEA needs to fill 16 vacancies. The attorney general 
and Secretary of Homeland Security must make a serious effort to find 
creative and flexible ways to fill these posts.
    Again, thank you for giving me the opportunity to testify before 
this subcommittee. I trust this hearing will help find solutions to 
address the intolerable levels of violence and crime affecting the 
people of Puerto Rico.
            Sincerely,
                                               Marco Rubio,
                                             United States Senator.
                                 ______
                                 
    Statement of Mayor Jorge Santini Padilla, San Juan, Puerto Rico
                             June 21, 2012
                              introduction
    Chairman McCaul and Members of the subcommittee, thank you for 
allowing me the opportunity to submit the following statement. I am 
pleased that you are conducting this hearing on the problem of drug 
trafficking in the Caribbean and on the very real concern that our 
island could be used by criminals and terrorists as a gateway to the 
continental United States.
    As the Mayor of San Juan, I am concerned with the health, safety, 
and security of my fellow citizens and the millions of visitors who 
reside and visit our capital city. The increased drug trade has been a 
big challenge of my administration and I will continue to work with 
Governor Fortuno and the Federal agencies to combat this threat.
    As a United States Marine and current Colonel in the Puerto Rico 
National Guard, I have dedicated my life to the security of our great 
Nation. Nothing saddens me more than the thought that my island could 
be used by terrorists as a back door entry to the continental United 
States. I am concerned, however, that this could be the case and thus 
join my Governor and DHS officials in requesting more resources to 
combat terror in the Caribbean.
    San Juan is Puerto Rico's largest metropolitan center. With a 
population of approximately 500,000 residents in San Juan and 1.6 
million in the San Juan metropolitan area, the city has the highest 
levels of economic and social activities in the Caribbean. However, 
with such a high level of commerce and the island's strategic 
geographic location between South America and the United States, there 
also exists the risks and the reality of an ever-increasing drug-
trafficking network and drug-abuse problem for our residents and 
visitors. Clearly, due to our population and as the most visited city 
in Puerto Rico, we are a magnet for potential terrorist attacks when 
compared to other cities in Puerto Rico and on the mainland United 
States. While there have been key efforts and huge amounts of resources 
devoted from the local, State, and Federal governments and the various 
law enforcement agencies to try and decrease the power of the drug 
trade, more support and an overall greater emphasis must be given to 
the island and the city of San Juan if we are to truly make a 
difference in this great endeavor we have undertaken.
                        law enforcement efforts
    The city of San Juan is at the forefront of the fight against drug-
traffickers. Our law enforcement jurisdiction includes a 123-square-
mile area of the Northern Coastal Plains region, including the city of 
San Juan and the viable water connections of the San Juan Estuary, 
including the San Juan Port Area. The San Juan Police Department 
supports Federal and State law enforcement agencies such as the Puerto 
Rico State Police Department (PRSPD), the Puerto Rico Justice 
Department (PRJD), Federal Bureau of Investigation (FBI), the Drug 
Enforcement Agency (DEA), the U.S. Immigration and Customs Enforcement 
(ICE), as well as others. Through these formal partnerships, the San 
Juan Police Department has been able to establish task forces, 
participate in large-scale investigations, and ensure the optimal and 
effective use of resources in the war against drug traffickers.
    Some of these combined efforts have produced positive results such 
as the recent shutdown of two large drug smuggling rings at the Luis 
Munoz Marin International Airport on June 6, 2012. In this case, the 
DEA and other authorities including the FBI and PRSPD, with the 
collaboration of the San Juan Police Department, indicted 45 people of 
which 36 were arrested in a drug-trafficking raid. The individuals 
indicted were accused of transporting large amounts of cocaine using 
various methods. These methods included carrying cocaine packages in 
bags and backpacks, and hiding it within themselves and in official 
work vehicles. About 20 of the 45 individuals indicted were charged for 
allegedly aiding and abetting each other and conspiring to possess with 
intent to distribute in excess of 9,000 kilograms of cocaine aboard 
American Airlines commercial flights. These drugs were headed to the 
continental United States, specifically New Jersey, New York, Florida, 
Pennsylvania, Maryland, and Massachusetts.
                         increased drug traffic
    While there has been an increase in law enforcement efforts in 
recent years to address the drug-trafficking problem, unfortunately, 
there are more and more drugs being brought into the city and 
transported into the continental United States than we can track and 
seize.
    One contributing factor to the increased drug traffic is the 
falling price of cocaine and other drugs. The most recent average price 
estimates for a kilogram of cocaine in the High Intensity Drug 
Trafficking Area (HDTA), which includes Puerto Rico and the eastern 
Caribbean, has decreased from a range of $28,000 to $30,000 in October 
2008 to a range of $16,800 to $21,000. This has made cocaine and other 
drugs more readily available in Puerto Rico and especially in the city 
of San Juan.
    My administration and local law enforcement agencies also agree 
that a second factor contributing to the wide availability of drugs in 
San Juan and in Puerto Rico is that increase in security at the U.S.-
Mexican Border. We have seen that this has resulted in the drug cartels 
and drug traffickers making more use of the Caribbean corridor, of 
which Puerto Rico remains a central hub, to transport drugs.
                               the ports
    The airports and seaports in San Juan are central in our concerns 
about drug traffic and potential terror threats. The Port of San Juan 
is the island's main seaport and the Caribbean's busiest. In 2011 
alone, there were an estimated 1,484,595 cargo units that made their 
way through the Port of San Juan. This made San Juan the twelfth-
busiest seaport in North America, and the most used in the Caribbean. 
Luis Munoz Marin International Airport and the Fernando Luis Ribas 
Dominicci Airport (also commonly known as Isla Grande Airport) both 
serve the city of San Juan and its outlying communities, with the 
former being the largest airport in all of Puerto Rico. Over 4 million 
passengers travel every year through the Luis Munoz Marin International 
Airport while the Isla Grande Airport sees almost 40,000 passengers 
come through its gate, most of them from other islands in the 
Caribbean.
    Our ports are equipped with technology and security enhancements 
that have been put in place to detect drugs, explosives, and other 
illegal contraband that may make its way onto the island. These include 
over 153 video cameras at the Port of San Juan, 7 of which are 
outfitted with special night vision lenses and have the capacity to 
cover up to 11 miles of the seaport perimeter. The port is also 
equipped with other security measures such as an advanced radio video 
surveillance system, a command center, a Docks and Ships Management 
System (DSMS), and an automated identification system that offers data 
regarding velocity, knots, distance, and orientation of incoming ships.
    With this much traffic going through our ports, it is only 
reasonable to think that drugs and other illegal contraband have the 
potential to be smuggled into the island and eventually into the 
continental United States. While established security measures and 
personnel work hard to deal with the inflow of drugs and other illegal 
contraband through our ports, these efforts are limited in their 
capabilities. The amount of traffic that the ports receive makes it 
impossible to screen and check every item that comes through. As a 
result, criminals and drug traffickers are always active in trying to 
outsmart and outmaneuver the security measures and personnel. They do 
this by creating new ways to smuggle contraband on a daily basis that 
sometimes makes it difficult for law enforcement personnel and security 
to discover. These tactics include sewing small packages of drugs into 
pieces of clothing, and paying crew members of cruise ships to sneak 
the drugs onto the ships and deliver them to local dealers in the 
mainland, among other ways. In addition to this, once new and/or 
effective methods of smuggling drugs are decided, drug-traffickers and 
criminals will execute these methods in large numbers, as discovered 
during the June 6th raid and other instances.
    As defined and established by the U.S. Coast Guard, the San Juan 
seaport is defined as a Group II port area facing potential threats and 
risks in the event of terrorist attacks. In view of the San Juan Port's 
level of importance and its contribution to the business and trading 
sectors of the island, the San Juan Police Maritime and Divers Units 
collaborate with Federal agencies such as the TSA, FBI, Coast Guard, 
and CBP, in joint operations that include the underwater inspection of 
ships' hulls for possible drug smuggling or presence of improvised 
explosive devices (IED's).
                        drug abuse and treatment
    As we are working on the huge challenge of decreasing the number of 
drug packages smuggled into the continental United States through San 
Juan and Puerto Rico, the local San Juan population and government are 
also dealing with the effects of addiction and drug-related crime. 
Unfortunately, a large segment of the population affected by drugs is 
our veteran population. San Juan is home to thousands of our Nation's 
veterans and that number continues to grow as our brave men and women 
return from Afghanistan. We are devoted to the care of our veterans, 
including those battling drug addictions. We have worked on numerous 
outreach programs to counter the challenges unique to San Juan veterans 
including language and cultural barriers to seeking help.
                      additional resources needed
    In order for the municipality of San Juan to continue to support 
the Federal and State agencies charged with protecting our borders, 
combating drug trafficking and distribution, and thwarting terrorism, 
the city will require additional resources. Each day, criminals and 
terrorists become more sophisticated. Law enforcement is in many cases 
out-manned by huge criminal enterprises. The San Juan Police Department 
actively supports all Federal and State agencies and will continue to 
do so without hesitation. However, between the everyday operations of a 
major metropolitan police force and the added responsibilities of 
fighting the drug trade and potential terrorist plots, our department's 
resources are stretched thin. The city of San Juan and the United 
States as a whole would benefit from a Federal commitment to putting 
more officers on our streets and updating our equipment.
                               conclusion
    The problem of drug trafficking is one that needs to be approached 
on multiple fronts. While it is crucial that we enhance and improve our 
law enforcement capabilities, we must also tend to the victims and 
bystanders of this epic struggle. The city of San Juan is at the 
forefront of this fight and will always continue to contribute as many 
resources, personnel, and energy as it can provide. But the city cannot 
do this alone. It needs the strength, support, and will of not only 
Puerto Rico and its residents, but those of its fellow Americans as 
well. As the days go by, San Juan is faced with a daily surge in drug-
related violence; including murders, drug-addicted residents, and a 
rising powerful drug underworld that seeks to undermine the foundation 
and progress of the United States.
    Mr. Chairman and Members of the committee, I implore you to 
consider what has and will be said today. America's Caribbean Border 
needs to be at the priority list if the United States is serious about 
keeping the homeland safe and secure. I hope that through these and 
other findings and revelations, the United States Congress and the 
American Government will become more willing and able to come together 
and find sustainable and palatable solutions to these issues. This is 
not a matter of just drug trafficking, crime, and cartels, but one that 
threatens our civil liberties and National security.
                                 ______
                                 
                       Letter from Luis G. Romero
                                     June 15, 2012.
Hon. Michael T. McCaul,
Chairman, Subcommittee on Oversight, Investigations, and Management, 
        House Committee on Homeland Security, House of Representatives, 
        131 Cannon House Office Building, Washington, DC 20515.
    Dear Congressman McCaul: Following up on our letter dated June 1, 
2012 (copy attached), we would like to submit to the Subcommittee on 
Oversight, Investigations, and Management of the House of 
Representatives additional information that may aid the subcommittee in 
its deliberations. The subcommittee is correct to be concerned about 
the U.S.-Caribbean Border. In Puerto Rico and the U.S. Virgin Islands 
live approximately 4 million American citizens. These citizens are 
facing a continuous threat as a consequence of this National security 
issue that needs to be attended to.
    Puerto Rico is working hard to do its part. Additional resources 
are being provided by the Puerto Rico government for law enforcement. 
In a highly unusual movement, particularly difficult in an election 
year, a bipartisan effort has taken root to pass tougher laws in order 
to stiffen penalties and correct procedural obstacles. Citizens-Police 
interaction committees have been created in all of the Puerto Rico 
Police regions. Likewise, organizations like BastaYaPR (``It's Enough, 
Puerto Rico'') are focusing their attention to community-led 
initiatives to reduce crime and get rid of the scourge of the huge drug 
traffic that is passing through on its way to the USA mainland. 
BastaYaPR donated to the police equipment and made available at no cost 
a cellular application to improve citizens reporting drug-related 
incidents and other crimes to the police.
    But the local law enforcement agencies can do all they can, the 
citizens can get up in arms, and that is not enough. There is a huge 
gap: Border protection. The United States Government has the main 
responsibility of protecting the border and without sufficient 
resources this is just not possible.
    In 2011 there were 1,136 murders in Puerto Rico and 1,017 in 2010. 
The total numbers of Type I crimes were 62,269 and 62,257 in 2011 and 
2010 respectively.\1\ On a State level, this table shows how Puerto 
Rico compares with other States:\2\
---------------------------------------------------------------------------
    \1\ Source: Puerto Rico Statistics Institute.
    \2\ Source: Uniform Crime Reports, FBI. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Comparing major cities with Puerto Rico may be a better analysis 
due to Puerto Rico's population density: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Now let's look at total violent crime rates and see the result of 
the drug traffic running through Puerto Rico: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There is no better proof than the previous charts that the 
Caribbean-U.S. Border is porous, American citizens are dying as a 
result, and Federal law enforcement agencies need to be bolstered with 
more personnel and funding. The drugs that are not stopped at the 
Caribbean-U.S. Border end up in cities across the 50 States.
    We fully support the creation of a Caribbean Border Initiative, 
similar to the effort along the U.S. Southern Border, to ensure the 
Nation's borders are fully protected.
            Respectfully submitted,
                                            Luis G. Romero,
                                         President, BastaYaPR, Inc.

    Mr. McCaul. With that, I would like to introduce our first 
panel. Governor Luis Fortuno is the Governor of the 
Commonwealth of Puerto Rico, a position he was elected to in 
2009. He serves as chairman of the Southern Governors 
Association, as well as the president of the Council of State 
Governments.
    Prior to being elected, he served as a Resident 
Commissioner of Puerto Rico from 2005 to 2009. During his time 
in the House, he served as vice chair of the Congressional 
Hispanic Conference and was a cosponsor of the Puerto Rico 
Democracy Act. Before being elected to public office, Governor 
Fortuno was the first secretary of the Puerto Rico Department 
of Economic Development and Commerce, as well as the executive 
director of the Puerto Rico Tourism Company, and served as the 
president of Puerto Rico's Hotel Development Corporation.
    On a point of personal privilege, I can say he is a 
personal friend of mine and a colleague. We came into the 
Congress together and served together for many years.
    Governor, it is good to see you back in Washington. With 
that, we are ready for your testimony.

STATEMENT OF THE HONORABLE LUIS FORTUNO, GOVERNOR, COMMONWEALTH 
                         OF PUERTO RICO

    Governor Fortuno. Thank you, Mr. Chairman.
    Chairman McCaul, Ranking Member Keating, and distinguished 
Members of the subcommittee, I appear before you to address the 
building National security threat posed by transnational drug-
trafficking organizations infiltrating our country and 
endangering the safety of over 4 million U.S. citizens living 
along the U.S.-Caribbean Border.
    I would like to thank you especially, Mr. Chairman, 
Chairman McCaul, good friend, for your leadership in calling 
this hearing and bringing attention to this growing security 
challenge that has been overlooked in Washington for too long. 
Because as you well understand, Mr. Chairman, it is not just 
about the safety and security of U.S. citizens in Puerto Rico 
and the U.S. Virgin Islands, but also intrinsically linked to 
the safety of U.S. citizens throughout the mainland.
    Today, Puerto Rico is serving as the last line of defense 
in the Caribbean to prevent drugs and violence from reaching 
the U.S. mainland. Drug-trafficking cartels operating from 
Colombia and through transit countries, like Venezuela and the 
Dominican Republic, are sparking a battle for drug turf in 
Puerto Rico and unleashing a brutal wave of violence in their 
wake.
    Let me paint a picture of the horror that I am referring 
to, because I am not convinced that Federal officials recognize 
the severity of our situation. Last year, at a mall just 
outside of San Juan, a violent conflict between two drug 
dealers over the control of a nearby drug retail point resulted 
in a bloody shooting that left one of the dealers dead and 
several innocent bystanders wounded. At 5 o'clock in the 
afternoon, in the middle of a food court crowded with dozens of 
adults and children, 21-year-old Luis Valdez opened fire, 
shooting 22-year-old Emmanuel Zapata nine times in the head and 
torso with a 40-caliber handgun. Several in the crowd were 
struck by stray bullets during the pandemonium. One of the 
victims was a 14-year-old girl, I repeat 14-year-old, a ninth-
grade high-school student who later testified at the shooter's 
trial. She had arrived at the mall with her grandfather and a 
friend from school, and was waiting in the food court to meet 
up with her brother. A mother who was in the food court with 
her 7-year-old child was struck and rushed to the hospital for, 
thankfully, life-saving medical care.
    After the shooting, the perpetrator fled the scene and 
Puerto Rico. In July, he was extradited from the State of New 
York, where he had fled, was tried and convicted, and he is now 
serving a 199-year sentence for first-degree murder.
    What stands out starkly is the audacity of this crime, 
committed at a crowded mall with dozens of witnesses, with the 
play-by-play caught on security cameras and complete disregard 
for the innocent. Just imagine if this were happening in 
Austin, in Tampa, in Brooklyn, or any of your home towns.
    Unfortunately, this is but one example of the blatant and 
unbridled drug violence that is happening on U.S. soil right 
now and threatening the lives of over 4 million U.S. citizens 
residing in Puerto Rico and the U.S. Virgin Islands. The U.S.-
Caribbean territories of Puerto Rico and the U.S. Virgin 
Islands are America's Caribbean Border. Because of our 
geographic proximity, the U.S.-Caribbean Border is increasingly 
being used as a transshipment zone for cocaine and other drugs 
destined for mainland U.S. markets. Actually, just last night, 
we stopped 6 kilos at the airport going to Boston.
    As a U.S. territory, once these drugs enter Puerto Rico, 
they are easily delivered to the States through commercial 
airlines and container ships without having to clear Customs or 
other heightened scrutiny. An estimated 70 to 80 percent of the 
Colombian cocaine reaching Puerto Rico is then transshipped to 
U.S. cities cross the Eastern Seaboard, from Florida all the 
way to New York and Massachusetts.
    Puerto Rico is in turn a destination for illicit drug money 
and illegal firearms coming from the U.S. mainland to fortify 
drug-trafficking networks. Large drug-trafficking organizations 
are putting illegal proceeds into bank accounts in Puerto Rico 
and then funneling the money to accounts in Asia, Europe, and 
even the Middle East. Recent ATF data confirms illegal firearms 
used to commit crimes in Puerto Rico can be traced back to more 
than 20 States, with Florida, Texas, Georgia, and Ohio being 
the biggest sources last year.
    These transnational criminal organizations pose an ever-
changing threat. The reality is that Federal and State law 
enforcement have not been able to keep pace with this agile and 
well-funded enemy. As a result, the U.S.-Caribbean Border is 
experiencing a dramatic upsurge in drug-related violence. While 
the U.S. homicide rate has declined substantially in recent 
decades, Puerto Rico is experiencing an extraordinary uptick. 
In 2011, Puerto Rico had the highest number of murders in a 
single year in all of its history, with 1,136 murders for a 
population of approximately 3.7 million people.
    Puerto Rico law enforcement officials estimate that close 
to 80 percent of murders are related to illegal drug trade. 
This has driven Puerto Rico's murder rate to six times the 
National average and more than twice as high as any State. To 
put our figures in context, Texas, with 25 million residents, 
had 1,246 homicides in 2010. Ask anyone who understands basic 
economics can tell you once the Puerto Rico market reaches 
saturation, local distributors can either drop their prices to 
generate greater demand or they can eliminate their competition 
and steal away customers. Judging from the levels of 
trafficker-on-trafficker violence, these criminals are 
routinely using intimidation and violence to gain control of 
local retail drug markets.
    These crimes are only becoming more ruthless. In October 
2009, the Tombola massacre occurred. Members of a drug ring 
used automatic weapons to attack a rival trafficker at a 
nightclub in Toa Baja, Puerto Rico, leaving 8 bystanders dead 
and more than 20 wounded. These tragedies have not adversely 
affected Puerto Rico tourism, partially attributed to our State 
police dispatching additional officers to protect high tourism 
areas.
    But I must tell you, this situation has greatly tested our 
resolve. The Government of Puerto Rico is doing everything 
within our limited jurisdiction and resources, but we cannot 
fight this war alone, nor should we be required to do so. This 
is a shared responsibility. The consequences affect us all. 
Nearly 30 percent of illegal drugs coming into the continental 
United States come through the Caribbean, making us as 
important a border from a defensive standpoint as the U.S.-
Mexico Border. While a strong commitment of Federal law 
enforcement resources have justifiably gone to the U.S.-Mexico 
Border, defenses along the U.S.-Caribbean Border have remained 
under-resourced. Highlighting the truly interconnected nature 
of this threat, pressure brought to bear along the U.S.-Mexico 
Border has resulted in traffickers increasingly using routes 
through the Caribbean.
    Members of this committee are correct to be concerned about 
stopping drug trafficking in the Caribbean, as up to 80 percent 
of the cocaine coming through Puerto Rico reaches cities across 
the Eastern Seaboard. This is truly a National security issue. 
The Federal Government must take responsibility for 
guaranteeing the safety and security of America's Caribbean 
Border, the safety and security of more than 4 million U.S. 
citizens who live there, and the safety and security of State-
side communities impacted by the flow of drugs and violence.
    Puerto Rico is facing many challenges, and we are showing 
real and genuine accountability to confront those challenges. 
As Governor, I refuse to shy away from making tough decisions 
that ultimately affect the safety and quality of life of my 
constituents. But I firmly believe the Federal Government must 
make an equally strong commitment. As a U.S. territory, we 
receive disproportionately less Federal funding for law 
enforcement efforts when compared to States with similar 
populations and fewer responsibilities affecting National 
security. Similar to the fiscal challenges we face at the 
Federal level, Puerto Rico has faced deficit and budget 
challenges. I have made it clear to my entire team that 
everyone is expected to create a more efficient, effective, and 
accountable government. We have made great advances toward 
putting Puerto Rico on the right path. But when we dedicate all 
of our State-level resources to law enforcement, a sacrifice 
that we continue to make alone, it places too much of a burden 
on my constituents.
    Since I took office in 2009, I have been working to address 
this very serious drug-trafficking problem and the violence it 
spawns. I have been working to bring about positive change in 
our State police and criminal justice system that have 
traditionally faced significant challenges due to years of 
underfunding, inefficiencies, lack of sufficient oversight, and 
administrative neglect.
    The government of Puerto Rico is implementing a 
comprehensive effort to improve the professionalization of the 
Puerto Rico Police, one of the Nation's largest police forces, 
with approximately 17,000 officers. We are addressing the issue 
through multiple fronts, including training partnerships with 
the local police force, purchasing new equipment, improving 
precinct conditions, and increasing officers' salaries, as well 
as improving access to modern communications and technology.
    The reform process is focused on changing and improving the 
police policies and practices of the Puerto Rico Police in all 
aspects of the organization's culture, operations, structure, 
investigations, education, and services. The goal is to make 
the Puerto Rico Police a model for Constitutional policing. 
Steady progress has been made and will continue toward that 
objective. The U.S. Department of Justice's Civil Rights 
Division's investigation into the Puerto Rico Police, which 
began before I took office, revealed brewing issues for our law 
enforcement. My predecessor regrettably ignored these 
violations, and it has taken time to make the improvements that 
I expect. But we have taken swift and decisive action to reform 
the State police. Without excuses or delays, we have assumed 
responsibility and initiated a full-fledged reform effort to 
not only help officers do their jobs better and within the 
framework of Constitutional policing, but to restore public 
confidence and trust in the police and the State justice 
system.
    We established an independent monitor who evaluated the 
policies, procedures, and practices of the department. We 
established a new use of force policy and have trained over 
14,000 officers in that policy. We have improved and expanded 
officer training at the police academy for both new recruits 
and veteran officers, and we have improved officer supervision.
    I appointed Hector Pesquera, who is here with me today, as 
the new superintendent of the Puerto Rico Police. 
Superintendent Pesquera is uniquely qualified to lead the 
reform efforts. He began his successful 27-year career with the 
FBI and has come back to Puerto Rico to help combat crime and 
strengthen collaboration between the police, local communities, 
and the Federal Government. To help empower our citizens, we 
partnered with a local not-for-profit Basta Ya, which means 
``enough is enough.''
    With me here today are the founders of Basta Ya, Luis and 
Marie Romero, who lost their son just over a year ago because 
of a violent crime, as you just mentioned. Thank you for being 
here with us today. This family has led by the powerful example 
of turning their personal tragedy into a community effort to 
help the police fight violent crime. Basta Ya developed a 
service for people to anonymously file police reports using on-
line resources and mobile applications. This collaboration 
within the legal communities has helped our police gather 
valuable intelligence in locating the scene of a crime and 
apprehending criminals.
    My administration has expended considerable resources to 
reform and strengthen the police by bringing in a 
multidisciplinary team of law enforcement and policing experts, 
who have been working on this issue for over 2 years. We are 
making real progress in improving our police department, which 
we believe is a moral imperative to which my administration is 
fully committed.
    To directly attack the drug problem and assist in 
protecting our borders, my administration has established 
several significant initiatives. Let me go over them very 
quickly. Strike the Drugpoint is a joint operation led by the 
Puerto Rico Police and prosecutors from our State organized 
crime unit. This State strike force has dismantled 741 drug 
retail points throughout Puerto Rico, obtaining a very high 
conviction rate. We have also gone after the drug trafficking 
network supply chain. Our Strike the Supplier force allows 
State law enforcement officials to actively go after drugs and 
weapons entering our harbors and airports. Our Group of 100 
initiative is comprised of officers specializing in narcotics, 
highway patrols, vehicle thefts, and tactical operations. The 
multidisciplinary units work collaboratively to identify, 
investigate, disrupt, and dismantle drug retail points.
    We also instituted a cargo container scanning and 
inspection program to identify contraband, drugs, and weapons 
entering illegally through our maritime ports. After much 
effort, we recently reached agreement with the U.S. Customs and 
Border Protection enabling us to scan in-bound international 
cargo as well. We are now scanning more than 90 percent of in-
bound cargo containers arriving at the port of San Juan, the 
island's largest shipping port, with a goal of scanning up to 
100 percent of in-bound cargo by later this summer.
    While these border security measures have been essential, I 
realize that we cannot arrest our way out of this problem. That 
is why my administration is also implementing treatment and 
prevention services to reduce the threats that these dangerous 
drugs pose to my constituents. My administration has partnered 
with many not-for-profits to treat as many drug abusers and 
addicts as possible.
    We have implemented a CeaseFire pilot program in Puerto 
Rico based on a successful Chicago model to help treat drug 
addicts and criminals. CeaseFire creates a neighborhood-by-
neighborhood strategy to end the cycle of violence and restore 
peace. Community leaders and local citizens learn how to 
partner with our public safety leaders and become first 
responders. We always know what is happening in our 
neighborhoods. Now we can actually do something about it. It is 
the first step towards taking back our streets.
    As an island, we need to be more effective as first 
responders within our communities. We must prevent violent acts 
from occurring. We must identify the people who are most 
vulnerable. In many disadvantaged areas of Puerto Rico, no 
different than in many of your districts, gangs are 
brainwashing our children, leading them down a deadly path. We 
have a responsibility to rescue our children from the deadly 
influence of gang violence. We need to give our children the 
positive influences they need to become responsible citizens. 
CeaseFire is not only teaching responsibility; it is saving 
lives. We also work closely with youth through the Value Your 
Life program, Valora Tu Vida, which allows at-risk youth to 
interact with reformed convicts and victims of crime.
    It is important that they actually see the faces of the 
people affected by drugs and violence, and increase their 
commitment to a higher set of values and ethical behavior. We 
have also worked with the renowned Josephson Institute of 
Ethics to implement the Character Counts program throughout our 
public schools. It is an opportunity to underscore the values 
we want to pass on to our children and has helped reduce 
bullying, fighting, and dropouts, as well as improvement in 
academic performance. That is real progress. That is something 
that every Puerto Rican family should be proud of. After all, 
we are all in this together.
    Through a unique government, community, and faith-based 
collaboration we implemented the most successful weapons 
amnesty program in Puerto Rico's history. In a period of just 
90 days, 1,966 illegal firearms and over 100,000 rounds of 
ammunition were taken off our streets. With entire communities 
working together, we proved that you can get weapons off the 
streets and out of the hands of those considering a life of 
crime. I am proud of their decision. For those who did not 
surrender their illegal weapons, we will not allow them to 
threaten our quality of life. Our police officers are working 
closely with every community so that we can all take 
responsibility in protecting our neighborhoods.
    Puerto Ricans will continue to show strength on public 
safety during a referendum this August. We hope to amend our 
territorial constitution to limit suspected criminals from 
being released on bail. This provision would apply to all 
suspects accused of committing murder that involves 
premeditation, stalking, home robbery, kidnapping, sexual 
assault, firing a weapon in public and from a moving vehicle, 
and when the victim is an officer on duty. Passing this 
amendment will address the Achilles heel of Puerto Rico's 
criminal justice system, which for decades has allowed violent 
criminals arrested on murder charges to walk right back out 
onto the streets and kill more innocent civilians, including 
potential witnesses. This situation is simply unacceptable.
    I plan to do everything I can to support this referendum in 
order to better protect Puerto Rican families. Since coming 
into office, my administration has worked hard to reestablish 
and improve relationships between State and Federal law 
enforcement agencies. I have personally hosted regular meetings 
to bring together Federal and State law enforcement leadership 
on the island, and we have success stories to prove that this 
partnership can work. The first big breakthrough was in 
February 2010, with the signing of a memorandum of 
understanding between the U.S. District Attorney's Office, the 
Puerto Rico Department of Justice, and the Puerto Rico Police 
on cases involving concurrent State and Federal jurisdiction. 
This MOU laid out the investigative and prosecutorial 
responsibilities of drug trafficking and violent crime cases.
    Puerto Rico has also detailed over 260 State police 
officers to work directly in Federal law enforcement agencies 
through joint task forces, with the officers detailed to the 
FBI, DEA, ATF, ICE, CBP-Air and Marine, TSA, U.S. Marshals, 
U.S. Postal Inspector, IRS, and other Federal agencies. We also 
worked with Federal authorities to create an illegal firearms 
and violent crimes strike force that operates in five of the 
island's 13 police regions. As of this May, the strike force 
has already yielded 336 arrests, of which 314 suspects were 
being detained without bail. This is in large part responsible 
for the over 20 percent reduction in murders this year over 
last for the zones covered by this agreement.
    The proof of these successes is in the statistics. In 2011 
alone, the task forces arrested over 1,800 individuals, of whom 
more than 170 were illegal immigrants. They also seized close 
to $95 million in illegal drugs, over 800 illegal firearms, and 
5,000 rounds of ammunition, and over $27 million in vehicles, 
boats, airplanes, and real estate being used by criminal 
networks.
    We also collaborated successfully with Federal law 
enforcement officials in Puerto Rico. They have performed 
exceptionally under very challenging circumstances. They are 
often doing their work with fewer resources, less manpower, 
less funding, and less strategic support from Federal law 
enforcement officials in Washington than their counterparts in 
other U.S. jurisdictions. While I applaud their perseverance, 
they lack the appropriate resources to overcome the homeland 
security threats that pervade this Nation, including in our 
U.S. territories. That is the primary role of the Federal 
Government, yet it is clear that over 4 million U.S. citizens 
in the Caribbean territories are being left underprotected. We 
have observed that there is a clear mismatch between the level 
of drug-related violence occurring along the U.S.-Caribbean 
Border and the size and scope of Federal response.
    When American lives are in danger, we have a moral 
obligation to protect them wherever they may be. I know that 
you share my belief. I need your commitment to act on this 
principle. Unfortunately, the limited attention and leadership 
from Washington's Federal law enforcement agencies suggest that 
Puerto Rico and the U.S. Virgin Islands are lower priorities. 
We are not just talking about the value of life. We are talking 
about American lives. Puerto Ricans have fought and died for 
this country in many wars. We have that honor, we take that 
honor seriously, and we expect the same principle that compels 
us to fight for this Nation will also persuade Federal law 
enforcement officials to aid their fellow Americans in Puerto 
Rico and the USVI. This lack of sufficient attention is most 
blatantly evidenced by the absence of any kind of comprehensive 
interagency strategy by the Federal Government to counteract 
the drug violence and National security threats these criminal 
networks generate along the U.S.-Caribbean Border, threats that 
range from laundering illicit drug proceeds to trafficking of 
illegal weapons, threats that involve other criminal 
enterprises such as human trafficking, prostitution, identity 
fraud, and financial crimes. All these crimes chip away at our 
Nation's security and undermine the safety of our citizens. 
Even worse, we know some of the drug trafficking organizations 
operating through Puerto Rico have had ties to narco-guerilla 
organizations such as the Revolutionary Armed Forces of 
Colombia, or FARC. FARC has been known to demand payments from 
trafficker networks in exchange to help transporting drugs from 
Colombia to Venezuela. In a recent example, the DEA dismantled 
a well-oiled distribution chain that between 2006 and 2011 
moved close to 4,000 kilos of cocaine from Guatemala, Honduras, 
Ecuador, Colombia, Venezuela, Tortola, Antigua, and the British 
Virgin Islands to Puerto Rico using planes and luxury cruisers.
    As part of their operation, this network had an agreement 
with FARC where the narco-guerillas received $1,000 for every 
kilo of cocaine that was transported to the Valle de Apure in 
Venezuela. Once the cocaine was on Venezuelan soil, the group 
would ship it via airplane to Caribbean waters, where the drugs 
were picked up by luxury ships bound for Puerto Rico. The 
majority of the cocaine was sent to Miami and New York. We 
cannot allow this threat to take hold along the U.S.-Caribbean 
Border, where drug-trafficking networks already have a clearly 
established supply chain to the States. Because God forbid, 
this established network could be bought for the right price 
and used to bring in terrorists that can harm or kill American 
citizens, we must act with greater urgency.
    Up to now, the Federal Government's domestic efforts have 
focused on securing the Southwest and the Northern Border. As 
these efforts yield results, trafficking is inevitably being 
pushed back to other points of entry, including the well-known 
Caribbean drug transshipment routes that were so prominent in 
the 1980s. In the absence of any significant Federal law 
enforcement surge along the U.S.-Caribbean Border, the 
unintended consequence has been an increase in the 
vulnerability of both U.S. territories to the drug trade. The 
impact the drug trade is having on the levels of violence in 
Puerto Rico and USVI are disproportionately high even when 
compared to the Southwest Border States. That violence is 
impacting U.S. citizens in our Territories who deserve the same 
protection from the Federal Government as their family members 
who live in Texas, California, New York, Florida, or any State 
of the Union. Yet Puerto Rico and the USVI were barely 
mentioned in the annual National Drug Control Strategy.
    To make matters worse, Puerto Rico and the USVI are not 
including in a number of critical Federal data sources on drug 
use and crime. This is vital data for the National Drug Control 
Strategy and for measuring the effectiveness of drug control 
programs. So why was Puerto Rico excluded from over 50 percent 
of the surveys, studies, data sets, reports, and programs in 
the 2011 National Drug Control Strategy Data Supplement? The 
exclusion contradicts Federal reports that performance 
statistics on the islands were outstanding. It appears that 
Federal officials in Washington are selectively including us 
when it benefits them, while excluding us when it tarnishes any 
National statistics. But let us not fool ourselves. By 
excluding Puerto Rico and the USVI, the Federal Government does 
a disservice to the U.S. citizens they have sworn to serve and 
protect. They deny us vital Federal resources, making it 
convenient for policymakers to ignore the deeper challenges we 
face. Vacancies at essential Federal law enforcement agencies 
are a key challenge we face. According to the information 
provided by the agencies themselves, DEA has a vacancy rate of 
12 percent and ICE has a vacancy rate of 15 percent, and ATF 
has a staggering vacancy rate of 39 percent. An insufficient 
number of CBP agents are available to patrol the eastern coast 
of the island, which has been a growing target for traffickers. 
It is hard to imagine Mayor Michael Bloomberg allowing the New 
York Police Department to have a 39 percent vacancy rate on New 
Year's Eve, yet that is exactly what is happening in Puerto 
Rico. We are short of Federal agents during the busiest time of 
the year. Ask yourselves, does this feeble effort represent the 
Federal Government's commitment to National security? Does this 
accurately reflect the challenges we face in helping to defend 
this Nation? Why does Puerto Rico receive less Federal funding 
for law enforcement purposes than State-side jurisdictions? Why 
in the Attorney General's multiple visits to the Caribbean he 
has not once visited Puerto Rico? Again, there are 3.7 million 
American citizens in Puerto Rico. They deserve his attention. 
They deserve your attention. They will always have my 
attention.
    We may not have a vote here, but I need you to hear our 
voices. We cannot afford to have the U.S.-Caribbean Border 
underprotected. The security risk is too great, and the 
consequences too severe. The Government of Puerto Rico is doing 
everything it can to increase public safety, but it is a 
National security issue that must be confronted. We simply 
cannot do it alone. Unless Washington acts, these criminal 
organizations will only strengthen their foothold in the 
region.
    I have repeatedly called on the President and senior 
Federal law enforcement officers to establish a U.S.-Caribbean 
Border Initiative to be led by the White House and the Office 
of National Drug Control Policy. All I am seeking from the 
Federal Government is the same level of commitment that has 
been provided to combat the drug trade along the Southwest and 
the Northern Borders. This is not about funding a program. This 
is about saving American lives. I refuse to bury another one of 
my constituents knowing that the Federal Government considers 
itself another bystander. That is not good enough for me, and 
it is not good enough for my constituents. I have to look into 
the thousands of faces of families who have lost loved ones on 
account of drug violence. We all know someone personally who 
has lost a loved one due to these unforgivable acts. I will not 
allow these Americans to die unnoticed, and neither should you. 
You may not listen to me, but at least listen to the stories of 
victims who perished far too soon: Sisters losing their 
brothers, children losing their moms, even fathers and mothers 
losing their sons, like Luis and Marie Rodriguez Romero. It is 
a tragedy whenever a child buries a parent, but it is against 
humanity when a parent must bury a child. Enough is enough.
    We must bolster resources, funding, and staffing of Federal 
law enforcement agencies throughout Puerto Rico that remain 
understaffed and underfunded compared to their State-side 
counterparts. We must fill Federal agency vacancies. We must 
ensure that Customs and Border Protection has the resources to 
inspect cargo at Puerto Rico's ports and patrol our borders. We 
must provide on-the-ground assistance to train Puerto Rico 
Police to deal with the security challenges created by 
transnational criminal organizations operating in the region. 
We must ensure Puerto Rico is included in National border 
security and drug trafficking strategies. Right now, Puerto 
Rico is serving as the last line of defense. We need help 
fighting this battle along the Caribbean Border to protect U.S. 
citizens there being buffeted by violence and to prevent the 
fight from spreading further onto the streets of the U.S. 
mainland. We cannot win without the active involvement of the 
Federal Government to secure all of our Nation's borders. Our 
constituents deserve and expect no less. Thank you, Mr. 
Chairman and distinguished Members of the committee for having 
me here today. I will be happy to answer any questions you may 
have.
    [The statement of Governor Fortuno follows:]
               Prepared Statement of Hon. Luis G. Fortuno
                             June 21, 2012
                                welcome
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, I appear before you today to address the building 
National security threat posed by transnational drug-trafficking 
organizations infiltrating our country and endangering the safety of 
over 4 million U.S. citizens living along the U.S.-Caribbean Border.
    I would like to thank Chairman McCaul for his leadership in calling 
this hearing and bringing attention to this growing security challenge 
that has been overlooked in Washington for too long. Because as you 
well understand, Mr. Chairman, this is not just about the safety and 
security of the U.S. citizens of Puerto Rico and the U.S. Virgin 
Islands, but also intricately linked to the safety of U.S. citizens 
throughout the mainland.
                           current situation
    Today, Puerto Rico is serving as the first line of defense in the 
Caribbean to prevent drugs and violence from reaching the U.S. 
mainland. Drug trafficking cartels operating from Colombia and through 
transit countries like Venezuela and the Dominican Republic are 
sparking a battle for drug turf in Puerto Rico and unleashing a brutal 
wave of violence in their wake.
    Let me paint a picture of what we are facing. Last year, at a mall 
just outside of San Juan, a violent conflict between two drug dealers 
over the control of nearby drug retail points resulted in a bloody 
shooting that left one of the dealers dead and several innocent 
bystanders wounded.
    At 5 o'clock in the afternoon, in the middle of the food court 
crowded with dozens of adults and children, 21-year-old Luis Daniel 
Valdez Melendez opened fire, shooting rival Emmanuel ``Manny'' Zapata 
Cazo, 22 years old, nine times in the head and torso with a .40 caliber 
handgun.
    Several in the crowd were struck by stray bullets during the melee. 
One of the victims was a 14-year-old girl, a ninth-grade high-school 
student who later testified at the shooter's trial. She had arrived at 
the mall with her grandfather and a friend from school, and was waiting 
in the food court to meet up with her brother.
    A mother, who was in the food court as well with her 7-year-old 
child, was struck and rushed to the hospital for, thankfully, life-
saving medical care.
    After the shooting, the perpetrator fled the scene and Puerto Rico. 
In July, he was extradited from the State of New York where he had 
fled, was tried and convicted and is now serving a 199-year sentence 
for first-degree murder.
    What stands out starkly is the callous audacity of this crime--
committed at a crowded mall with dozens of witnesses, with the play-by-
play caught on security cameras, and absolutely no thought given to the 
innocent.
    Unfortunately, this is but one example of the blatant and unbridled 
drug-related violence that is happening on U.S. soil right now and 
threatening the lives of over 4 million U.S. citizens residing in 
Puerto Rico and the U.S. Virgin Islands.
    The U.S. Caribbean territories of Puerto Rico and the U.S. Virgin 
Islands are America's Caribbean Border. Because of their geographic 
proximity to drug producing and drug transiting countries in South 
America and the Caribbean, notably Colombia, Venezuela and the 
Dominican Republic, the U.S.-Caribbean Border is increasingly being 
used as a transshipment zone, primarily for cocaine but also heroin, 
destined for mainland U.S. markets.
    As a U.S. territory, once these drugs enter Puerto Rico, they are 
easily delivered to the States, through commercial airlines and 
container ships, without having to clear Customs or other heightened 
scrutiny.
    An estimated 70 to 80 percent of the Colombian cocaine reaching 
Puerto Rico is then transshipped to U.S. cities across the Eastern 
Seaboard, from Florida to New York, according to local and Federal law 
enforcement authorities.
    Puerto Rico is in turn a destination for illicit drug money and 
illegal firearms coming from the U.S. mainland to fortify drug 
trafficking networks. The latest High Intensity Drug Trafficking Area 
analysis reports that Puerto Rico has also become a money-laundering 
destination for large drug-trafficking organizations that place illegal 
proceeds into bank accounts in Puerto Rico and then funnel the money--
via wire transfers--to accounts in Asia, Europe, and even the Middle 
East.
    And recent ATF data confirms that illegal firearms used to commit 
crimes in Puerto Rico can be traced back to more than 20 States--with 
Florida, Texas, Georgia, and Ohio being the biggest-source States for 
2011.
    The transnational criminal organizations operating through Puerto 
Rico and the States pose an ever-changing threat and are quick to adapt 
in our global economy. The reality is that Federal and State law 
enforcement have not been able to keep pace with this agile and well-
funded enemy. As a result, the U.S.-Caribbean Border is experiencing a 
dramatic upsurge in drug-related crime and violence.
    While the U.S. homicide rate has declined substantially in recent 
decades, Puerto Rico is experiencing an extraordinary uptick in drug-
related violence. In 2011, Puerto Rico had the highest number of 
murders in a single year in all of its history, with 1,136 murders for 
a population of approximately 3.7 million people. State law enforcement 
officials estimate that close to 80 percent of murders in Puerto Rico 
are related to the illegal drug trade.
    This has driven Puerto Rico's murder rate to 6 times the National 
average and more than twice as high as any State. To put our figures in 
context, the Southwest Border State of Texas with 25 million residents 
had 1,246 homicides in 2010.
    One of the factors escalating drug-related murders is the excess 
supply of cocaine that stays on the island in the transshipment 
process. This product is often received by local traffickers as in-kind 
payments for their role in the drug supply chain leading to lucrative 
State-side markets. This form of payment has acted as a catalyst for 
brutal competition to control local distribution markets.
    As anyone who understands basic economics can tell you, once the 
Puerto Rico market reaches saturation, local distributors can either 
drop their prices to generate greater demand from their existing 
consumer base, or they can eliminate their competition and steal away 
their customers. Judging from the levels of trafficker-on-trafficker 
violence, these criminals are routinely using intimidation and violence 
to gain and retain control of local retail drug markets.
    What is also alarming is the recent increase in the ruthlessness of 
these violent crimes and the rising incidents of innocent bystanders 
being caught in the crossfire. A horrific example of this is the well-
known ``Tombola Massacre,'' which occurred in October 2009. Members of 
a drug ring used rifles and automatic weapons to attack a rival 
trafficker at a nightclub in Toa Baja, Puerto Rico, leaving eight 
bystanders dead and more than 20 wounded.
    These tragedies have not adversely affected Puerto Rico tourism, 
partially attributed to our State police dispatching additional 
officers to protect high tourism areas. But this situation has greatly 
tested our resolve. The government of Puerto Rico is doing everything 
within our limited jurisdiction and resources. But we cannot fight this 
war alone, nor should we be required to do so.
    This is a shared responsibility. The consequences affect us all. 
Nearly 30 percent of the illegal drugs coming into the continental 
United States come through the Caribbean, making us as important a 
border from a defensive standpoint as the U.S.-Mexico Border.
    While a strong contingent of Federal law enforcement resources have 
justifiably gone to the U.S.-Mexico Border, defenses along the U.S.-
Caribbean Border have remained under-resourced. And highlighting the 
interconnected nature of this National security challenge, the pressure 
brought to bear along the U.S.-Mexico Border has resulted in 
traffickers increasingly using routes through the Caribbean.
    Members of this committee are correct to be concerned about 
stopping drug trafficking in the Caribbean basin, as up to 80 percent 
of the cocaine coming through Puerto Rico reaches cities across the 
Eastern Seaboard.
    This is truly a National security issue. The Federal Government 
must take responsibility for guaranteeing the safety and security of 
America's Caribbean Border, the more than 4 million U.S. citizens who 
live there, and the State-side communities impacted by the flow of 
drugs and the inevitable violence.
                  government of puerto rico's efforts
    Puerto Rico is facing many challenges, and we are showing real and 
genuine accountability to confront those challenges. As Governor, I 
refuse to shy away from making tough decisions that ultimately affect 
the safety and quality of life of my constituents. But I firmly believe 
the Federal Government must make an equally strong commitment. As a 
U.S. territory, we receive disproportionately less Federal funding for 
law enforcement efforts when compared to States with similar 
populations and fewer responsibilities affecting National security.
    Similar to the fiscal challenges we face at the Federal level, 
Puerto Rico has faced significant deficit and budget challenges. I have 
made it clear to my entire team that everyone is expected to create a 
more efficient, effective, and accountable government. And we have made 
great advances toward putting Puerto Rico on the right path. But when 
we dedicate all of the State-level resources to law enforcement, a 
sacrifice that we continue to make alone, it places too much of a 
burden on my constituents.
    Since I took office in 2009, I have been working not only to 
address this very serious drug-trafficking problem and the violence 
against our citizens that it spawns, but also to bring about positive 
change in our State police and criminal justice system that have 
traditionally faced significant challenges due to years of 
underfunding, inefficiencies, lack of sufficient oversight, and 
administrative neglect.
                           puerto rico police
    The government of Puerto Rico is implementing a comprehensive 
effort to improve the professionalization of the Puerto Rico Police, 
one of the Nation's largest police forces with approximately 17,000 
officers. We are addressing the issue through multiple fronts, 
including training partnerships and enhancements for the local police 
force including purchasing new equipment, improving precinct conditions 
and increasing officer salaries, as well as improving access to modern 
communications and technology.
    The reform process is focused on changing and improving the 
policies and practices of the Puerto Rico Police in all aspects of the 
organization's culture, operations, structure, investigations, 
education, and services. The goal is to make the Puerto Rico Police a 
model for constitutional policing, and steady progress has been made 
and will continue toward that objective.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The U.S. Department of Justice's Civil Rights Division 
investigation into the Puerto Rico Police, which began before I took 
office, revealed brewing issues with our law enforcement. My 
predecessor regrettably ignored these violations, and it has taken time 
to make the improvements that I expect. But we have taken swift and 
decisive action to reform the State police. Without excuses or delays, 
we have assumed responsibility and initiated a full-fledged reform 
effort to not only help officers do their jobs better and within the 
framework of Constitutional policing, but to restore public confidence 
and trust in the police and the State justice system.
    Toward this end, we established an independent monitor for the 
Puerto Rico Police that evaluated the policies, procedures, and 
practices of the department; we've created a Reform and Compliance 
Committee; and we established a new use-of-force policy and have 
trained over 14,000 officers in that policy. We have worked to improve 
and expand officer training at our Police Academy for both new recruits 
and veteran officers, and we've improved officer supervision, 
instituting a performance- and testing-based promotion system.
    I appointed Hector Pesquera, who is here with me today, as the new 
Superintendent of the Puerto Rico Police. Superintendent Pesquera is 
uniquely qualified to lead the reform efforts. He began his successful 
27-year career with the FBI as an agent in Puerto Rico and has come 
back to Puerto Rico to help combat crime and strengthen collaboration 
between the police, local communities, and the Federal Government.
    To help empower our citizens, we partnered with a local non-profit 
called, ``Basta Ya,'' which means ``Enough is Enough.'' ``Basta Ya,'' 
was founded by Luis and Marie Rodriguez Romero, who lost their son just 
over a year ago because of a violent crime. This family has led by the 
powerful example of turning their personal tragedy into a community 
effort to help the police fight violent crime.
    ``Basta Ya'' developed a service for people to anonymously file 
police reports, using on-line resources and mobile applications. This 
collaboration with individual communities has helped our police gather 
valuable intelligence in locating the scene of a crime and apprehending 
criminals.
    My administration has expended considerable resources to reform and 
strengthen the police by bringing in a multi-disciplinary team of 
experts in law enforcement and proper policing practices. This team has 
been working for the past 2 years to provide improved protocols and 
training to benefit both the police and the communities they serve. We 
are making real progress in terms of improving our police department, 
which we believe is a moral imperative to which my administration is 
fully committed.
    But keep in mind that the Puerto Rico Police is operating at a 
significant disadvantage when compared to many State-side police 
departments. For example, the total annual budget of the Puerto Rico 
Police, 17,000 officers serving 3.7 million constituents, is 
approximately $800 million. In comparison, the Broward County Sheriff's 
Office in Florida, with 3,000 officers serving 1.7 million 
constituents, has an annual budget of approximately $700 million.
       specific efforts on drug trafficking and border protection
    To directly attack the drug problem and assist in protecting our 
borders, my administration has established several significant State-
level initiatives. The first initiative is called the ``Strike the 
Drugpoint'' (Golpe al Punto), which is a joint operation led by the 
Puerto Rico Police in conjunction with 33 prosecutors from the Puerto 
Rico Department of Justice's Organized Crime Unit. This ``state strike 
force'' has dismantled 741 drug retail points throughout Puerto Rico, 
obtaining very high conviction rates.
    To help rehabilitate those addicts who are identified during these 
operations, we formed another strike force, called ``Helping the 
User.''
    We have also gone after the drug trafficking networks supply chain. 
Our ``Strike the Supplier'' force allows State law enforcement 
officials to actively investigate and reduce the amount of drugs and 
weapons entering our harbors and airports. Our ``Group of 100'' 
initiative is comprised of officers with specialized knowledge and 
equipment related to narcotics, highway patrols, vehicle theft, and 
tactical operations. The multidisciplinary units work collaboratively 
to identify, investigate, disrupt, and dismantle drug retail points.
    We also instituted a cargo container scanning and inspection 
program to identify contraband, drugs, and weapons entering our 
territory illegally through our maritime ports. In-bound domestic cargo 
containers are scanned with rapid X-ray technology in dedicated truck 
lanes before they leave the port and enter the ``stream of commerce'' 
on our streets.
    After much effort, we recently reached an agreement with U.S. 
Customs and Border Protection that will allow us to expand our port 
security program to include scanning of in-bound international cargo. 
This effort is essential, given that a significant amount of Puerto 
Rico's interstate and international commerce takes place using maritime 
transportation.
    After just 1 year of implementing our program, we are now scanning 
more than 90 percent of in-bound cargo containers arriving at the Port 
of San Juan, the Island's largest shipping port, with a goal of 
scanning up to 100 percent of inbound cargo by later this summer.
                    treatment and prevention efforts
    While these border security measures have been essential, I realize 
that we cannot arrest our way out of this problem. That's why my 
administration is also implementing treatment and prevention services 
to reduce the threats that these dangerous drugs pose on our people. My 
administration has partnered with many non-profits to treat as many 
drug abusers and addicts as possible.
    On the prevention side, we have implemented a CeaseFire pilot 
program in Puerto Rico called Acuerdos de Paz. The CeaseFire model, 
which has been used successfully in major metropolitan areas such as 
Chicago, has been successfully adapted to help treat drug addicts and 
criminals. CeaseFire creates a neighborhood-by-neighborhood strategy to 
end the cycle of violence and restore peace. Community leaders and 
local citizens learn how to partner with our public safety leaders and 
become first responders. We always know what's happening in our 
neighborhoods--now we can actually do something about it. It's the 
first step toward taking back our streets.
    As an Island, we need to be more effective as first responders 
within our communities. We must prevent violent acts from occurring. We 
must identify the people who are most vulnerable. In many disadvantaged 
areas of Puerto Rico, no different than in many of your districts, 
gangs are brainwashing our children, leading them down a deadly path. 
We have a responsibility to rescue our children from the deadly 
influence of gang violence. We need to give our children the positive 
influences they need to become responsible citizens. CeaseFire is not 
only teaching responsibility, it is saving lives.
    We also launched a youth-focused initiative called Value Your Life 
(Valora Tu Vida), led by the Puerto Rico Department of Justice and 
providing at-risk youth with workshops and facilitated dialogues with 
both reformed convicts and victims of crime. The goal is to strengthen 
these young people's value of both their own lives and the lives of 
others, and increase their commitment to ethical behavior.
    We have also worked with the renowned Josephson Institute of Ethics 
to adapt and implement the Character Counts program throughout our 
public schools. It's an opportunity to underscore the values we want to 
pass on to our children, and it is seamlessly integrated into school 
curriculums and learning environments. We have already seen a 
noticeable reduction in bullying, fighting, and dropouts, as well as an 
improvement in academic performance. That is real progress. That is 
something that every Puerto Rican family should be proud of. After all, 
we're in this together.
                   local efforts making a difference
    Through the collaboration of government as well as community and 
faith-based organizations, we implemented the most successful weapons 
amnesty program in Puerto Rico's history. In a period of just 90 days, 
1,966 illegal firearms and 100,129 rounds of ammunition were taken off 
our streets. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With entire communities working together, we proved that you can 
get weapons off the streets and out of the hands of those considering a 
life of crime. I am proud of their decision. And for those who did not 
surrender their weapons, we will not allow them to threaten our quality 
of life. Our police officers are working closely with every community, 
so that we can all take responsibility in protecting our neighborhoods.
    Puerto Ricans will continue to show strength on public safety 
during a referendum this August. We hope to amend our territorial 
Constitution to limit suspected criminals from being released on bail. 
This provision would apply to all suspects accused of committing 
premeditated murder, as well as murder that involves stalking, home 
robbery, kidnapping, sexual assault, firing a weapon in public or from 
a moving vehicle, and when the victim is an officer on duty. Passing 
this amendment will address the Achilles heel of Puerto Rico's criminal 
justice system, which for decades has allowed violent criminals who 
have been arrested on murder charges to walk right back out onto the 
streets and kill more innocent civilians, including potential 
witnesses. This situation is simply unacceptable. And I plan to do 
everything I can to support this referendum, in order to better protect 
Puerto Rican families.
                 collaboration with federal authorities
    Since coming into office, my administration has worked hard to re-
establish and improve relationships between State and Federal law 
enforcement agencies. I have personally hosted regular meetings to 
bring together Federal and State law enforcement leadership on the 
Island, and we have the success stories to prove that this partnership 
can work.
    The first big breakthrough was in February 2010 with the signing of 
a Memorandum of Understanding (MOU) between the U.S. District 
Attorney's Office, the Puerto Rico Department of Justice, and the 
Puerto Rico Police on the referral and handling of cases involving 
concurrent State and Federal jurisdiction. This MOU laid the foundation 
for the investigative and prosecutorial responsibilities in a range of 
drug trafficking and violent crime cases.
    Puerto Rico has also detailed over 260 State police officers to 
work directly in Federal law enforcement agencies through joint task 
forces, with officers detailed to the FBI, DEA, ATF, ICE, CBP-Air and 
Marine, TSA, U.S. Marshalls, U.S. Postal Inspector, IRS, and other 
Federal agencies. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We also worked with Federal authorities to create an ``Illegal 
Firearms and Violent Crime Strike Force'' that operates in five of the 
Island's 13 police regions. As of this May, the strike force has 
already yielded 336 arrests of which 314 suspects were being detained 
without bail. This is in large part responsible for the over 20% 
reduction in murders this year over last for the zones covered by the 
agreement.
    The proof of the success of these joint Federal/State task forces 
is in the statistics. In 2011 alone, the task forces arrested over 
1,800 individuals of whom more than 170 were illegal immigrants. They 
also seized close to $95 million in illegal drugs, over 800 illegal 
firearms and 5,000 rounds of ammunition, and over $27 million in 
vehicles, boats, airplanes and real estate being used by criminal 
networks.
    Other joint operations include the Puerto Rico National Guard's 
(PRNG) Counterdrug Program, which is funded by the Department of 
Defense through the National Guard Counter-Drug Program. The PRNG 
dedicates approximately 76 guardsmen to the program from its Army and 
Air units. These soldiers and airmen work to operate the fixed radar 
system and receive data feeds from the mobile radars and the Radar Over 
the Horizon (ROTHR).
    The PRNG has also provided support to U.S. Counterdrug efforts in 
the Dominican Republic and Honduras, nations that are part of the U.S.-
sponsored Central American Regional Security Initiative (CARSI) and the 
Caribbean Basin Security Initiative (CBSI), through which the Federal 
Government has provided over $360 million and $139 million respectively 
in foreign assistance.
    Our PRNG forces are more than willing to do their part to support 
National security efforts in other States and abroad. But given the 
level of drug-related crime in our own territory, it is difficult to 
understand why the Federal Government leadership would not ensure their 
agencies on the Island have the needed resources.
              challenges facing federal authorities in pr
    We have collaborated successfully with Federal law enforcement 
officials in Puerto Rico. They have performed exceptionally under very 
challenging circumstances. They are often doing their work with fewer 
resources, less manpower, less funding, and less strategic support from 
Federal law enforcement officials in Washington than their counterparts 
in other U.S. jurisdictions. While I applaud their perseverance, they 
lack the appropriate resources to overcome the homeland security 
threats that pervade this Nation, including in our U.S. territories. 
That's the primary role of the Federal Government. Yet, it is clear 
that over 4 million U.S. citizens in the Caribbean territories are 
being left under-protected.
    We have observed that there is a clear mismatch between the level 
of drug-related violence occurring along the U.S.-Caribbean Border and 
the size and scope of the Federal response. When American lives are in 
danger, we have a moral obligation to protect them wherever they may 
be. I know that you share my belief. And I need your commitment to act 
on this principle. Unfortunately, the limited attention and leadership 
from Washington's Federal law enforcement agencies suggests that Puerto 
Rico and USVI are lower priorities.
    We're not just talking about the value of life. We're talking about 
American lives. Puerto Ricans have fought and died for this country in 
many wars. We take that honor seriously. And we expect the same 
principle that compels us to fight for this Nation will also persuade 
Federal law enforcement officials to aid their fellow Americans in 
Puerto Rico.
    This lack of sufficient attention is most blatantly evidenced by 
the absence of any kind of comprehensive interagency strategy by the 
Federal Government to counteract the drug violence and National 
security threats these criminal networks generate along the U.S.-
Caribbean Border. Threats that range from laundering illicit drug 
proceeds to trafficking of illegal weapons. Threats that involve other 
criminal enterprises such as human trafficking, prostitution, identity 
fraud, and financial crimes. All these crimes chip away at our Nation's 
security and undermine the safety of our citizens.
    Even worse, we know some of the drug trafficking organizations 
operating through Puerto Rico have had ties to narco-guerilla 
organizations, such as the Revolutionary Armed Forces of Colombia (or 
FARC), which has been known to demand payments from trafficker networks 
in exchange for help transporting drugs from Colombia to Venezuela on 
their way to Puerto Rico and then the States. These are the same narco-
guerillas that the Federal Government has sought to defeat by investing 
close to $8 billion in foreign assistance through Plan Colombia, a 
decade-long effort to help the Colombian government in its fight 
against drug producers and traffickers.
    In a recent example, the Drug Enforcement Administration (DEA) 
dismantled a well-oiled distribution chain that between 2006 and 2011 
moved close to 4,000 kilos of cocaine from Guatemala, Honduras, 
Ecuador, Colombia, Venezuela, Tortola, Antigua, and the British Virgin 
Islands to Puerto Rico using planes and luxury cruisers. As part of 
their operation, this network had an agreement with the 10th division 
of the Colombian leftists guerrilla group FARC where the narco-
guerrillas received $1,000 for every kilo of cocaine that was 
transported to the Valle de Apure in Venezuela.
    Once the cocaine was on Venezuelan soil, the group would ship it 
via airplane to waters close to Tortola and Antigua, where the drugs 
were dropped and picked up by luxury ships bound for Puerto Rico. 
According to the charges, some cocaine remained in Puerto Rico while 
the majority was sent to Miami and New York.
    As William F. Wechsler, Deputy Assistant Secretary of Defense for 
Counternarcotics and Global Threats, affirmed in a recent irregular 
warfare summit sponsored by the Institute for Defense and Government 
Advancement, the convergence of crime, terrorism, and insurgency and 
its threat to U.S. National security is a growing concern for the 
Defense Department.
    In 2011, President Barack Obama issued a Strategy to Combat 
Transnational Organized Crime declaring these organizations a National 
security threat. The strategy also noted the complex and in some places 
opaque relationships developed among criminal organizations, terrorist 
groups, and insurgent movements, which points to the likelihood that 
more terrorist organizations are using criminal mechanisms to support 
themselves and more criminal organizations are using the tactics of 
terrorist organizations. As Director of National Intelligence James 
Clapper recently testified, ``terrorists and insurgents will 
increasingly turn to crime and criminal networks for funding and 
logistics, in part because of U.S. and Western success in attacking 
other sources of their funding.''
    We cannot allow this threat to take hold along the U.S.-Caribbean 
Border where drug trafficking networks already have a clearly 
established supply chain to the States. Because God forbid, this 
established network could be bought for the right price and used to 
bring in terrorists that can harm or kill American citizens. We must 
act with greater urgency.
    Up to now, the Federal Government's domestic efforts have focused 
on securing the Southwest and Northern Border by surging manpower, 
technology, and resources. This is completely necessary given the U.S.-
Mexico Border serves as a primary point of entry for illegal drugs and 
immigrants into the United States, and the Northern Border is one of 
the longest continuous borders in the world. These domestic efforts 
have been complemented by U.S. foreign policy initiatives with the 
investment of billions of dollars in foreign assistance to Mexico, 
Central America, and Caribbean nations, through the Merida Initiative, 
the Central American Regional Security Initiative (CARSI), and the 
Caribbean Border Security Initiative (CBSI). More than $1.6 billion has 
been appropriated for the Merida Initiative alone. However, as these 
efforts yield results, making it harder and costlier for drug-
trafficking organizations to use the Southwest Border, this inevitably 
pushes traffic back to other points of entry, including the well-known 
Caribbean drug transshipment routes that were so prominent in the 
1980s.
    The unintended consequence of these U.S. domestic and foreign 
policies is that, in the absence of any significant Federal law 
enforcement surge along the U.S.-Caribbean Border, there has been an 
increase in the vulnerability of both territories to the pressures of 
the drug trade and transnational criminal organizations.
    The impact that those drugs are having on the levels of violence in 
Puerto Rico and USVI are disproportionately high even when compared to 
the Southwest Border States. That violence is impacting U.S. citizens 
in our territories who deserve the same protection from the Federal 
Government as their family members who live in Texas, California, New 
York, Florida, or any other State of the Union.
    Yet Puerto Rico and the USVI are barely mentioned in the annual 
National Drug Control Strategy produced by the White House's Office of 
National Drug Control Policy (ONDCP). To make matters worse, when we 
were included in this year's strategy, it was one passing mention in a 
section on the Caribbean Basin Security Initiative (CBSI), a foreign 
assistance program which Puerto Rico, as a U.S. jurisdiction, is not 
even eligible to participate.
    Further, Puerto Rico and USVI are not included in a variety of 
critical Federal data sources on drug use and crime, most notably the 
National Survey on Drug Use and Health. This is a critical oversight, 
given this data is used to develop the National Drug Control Strategy, 
and to measure the effectiveness of drug control programs. So why was 
Puerto Rico excluded from over 50% of the surveys, studies, data sets, 
reports, and programs included in the 2011 National Drug Control 
Strategy Data Supplement? The exclusion contradicts Federal reports 
that performance statistics on the Island were outstanding.
    It appears that Federal officials in Washington are selectively 
including us when it benefits them while excluding us when it tarnishes 
any National statistics.
    But let us not fool ourselves. By excluding Puerto Rico and the 
USVI from these National statistics, the National Drug Control 
Strategy, and other plans, the Federal Government does a disservice to 
the U.S. citizens they have sworn to serve and protect. They deny us 
vital Federal resources, making it convenient for policymakers to 
ignore the deeper challenges we face.
    It's also become clear that Federal law enforcement agencies in 
Puerto Rico lack sufficient aircraft and maritime units. The Coast 
Guard currently does not have any fixed-wing coastal patrol airplanes 
permanently stationed in Puerto Rico. Although fixed-wing aircraft 
stationed in neighboring regions are used for interdiction missions in 
Puerto Rico, these aircraft cannot respond quickly to incidents in 
Puerto Rico.
    One of the significant challenges we face is vacancies in key 
Federal law enforcement agencies on the Island. The number of 
authorized positions is too low, and the number of vacancies at those 
agencies is too high. According to information provided by the agencies 
themselves, ATF has a vacancy rate of 39%, DEA has a vacancy rate of 
12%, and ICE has a vacancy rate of 15%. And we have been advised that 
due to lack of personnel, an insufficient number of CBP agents are 
available to patrol the eastern coast of the Island, which has been a 
growing target for traffickers.
    These are just some examples of what appears to be a pattern of 
neglect by top-level Federal authorities.
  what can federal authorities do to secure the u.s.-caribbean border?
    The Government of Puerto Rico is doing everything it can to 
increase public safety but this is a National security issue that must 
be confronted.
    We simply cannot do it alone. Unless Washington acts, these 
criminal organizations will only strengthen their foothold in the 
region.
    I have repeatedly called on the President and senior Federal law 
enforcement officials to establish a U.S.-Caribbean Border Initiative 
to be led by the White House and the Office of National Drug Control 
Policy. All I am seeking from the Federal Government is the same level 
of commitment that has been provided to combat the drug trade along the 
Southwest and Northern Borders.
    We must bolster resources, funding, and staffing of Federal law 
enforcement agencies throughout Puerto Rico that remain under-staffed 
and under-funded compared to their State-side counterparts.
    We must fill Federal agency vacancies.
    We must ensure the Customs and Border Protection has the resources 
to carry out cargo container scanning at Puerto Rico's ports and to 
patrol our borders.
    We must provide on-the-ground assistance to train Puerto Rico 
Police to deal with the security challenges created by transnational 
criminal organizations operating in the region.
    We must ensure Puerto Rico is included in National border security 
and drug trafficking strategies.
    Right now, Puerto Rico is serving on the front lines. We need help 
fighting this battle along the Caribbean Border, to protect the U.S. 
citizens there being buffeted by violence and to prevent the fight from 
spreading further onto the streets of the U.S. mainland.
    We cannot win without the active involvement of the Federal 
Government to secure all of our Nation's borders. Our constituents 
deserve and expect no less.
    Thank you, Mr. Chairman, and distinguished Members of the committee 
for having me here today. I would be happy to answer any questions you 
may have.

    Mr. McCaul. Thank you, Governor, for your strong leadership 
on this issue. Thank you for calling this important issue to 
the attention of this committee. I think it is an area that has 
been overlooked by the Federal Government, as you have 
eloquently pointed out.
    I wanted to ask you the question, I know you have met or 
talked to the President. I know you have met with Secretary 
Napolitano, Attorney General Holder. When asked earlier this 
month, the Attorney General was asked why the Office of 
National Drug Control Policy has a Southwest and Northern 
Border Counternarcotics Strategy but does not have a Caribbean 
Border Strategy, his response to that was when one looks at the 
Caribbean, Puerto Rico, in particular, I think we need a 
strategy. So my question to you is: What is the Federal 
strategy for the Caribbean region?
    Governor Fortuno. At this very moment, as far as we see it, 
our State law enforcement agencies are working very closely 
together with the local offices of those Federal agencies. But 
there is no strategy. At this very moment, actually, that is 
exactly what we are asking, that there be a strategy so that 
all the resources, existing resources could be brought to bear 
to protect what we have called America's Caribbean Border. It 
affects American citizens residing both in Puerto Rico and the 
U.S. Virgin Islands, but it also affects every American in 
every city across America. What we are asking is that there be 
a comprehensive interagency strategy for the U.S.-Caribbean 
Border Initiative, and that this--actually, this will bring and 
bolster resources, funding, and staffing of Federal law 
enforcement agencies throughout the region, which are at this 
moment, as I mentioned earlier, understaffed, and also will 
allow us and ensure that Puerto Rico and the U.S. Virgin 
Islands are included in any border security and drug-
trafficking initiatives that at this very moment we are not.
    Actually, I will go even further. At this moment, the 
Nation has a strategy in the Caribbean with foreign countries. 
Since both the USVI and Puerto Rico are part of the United 
States, we are excluded from that strategy and those meetings. 
By the same token, there is a strategy for the Southwest and 
the Northern Borders, but none for the Caribbean Border. Thus, 
at this very moment, we fell between the cracks, and we are 
nowhere to be found.
    Mr. McCaul. So as I understand it, we have a strategy for 
the Northern and Southern Borders, but not for what I call the 
third border, and that is the Caribbean. There is no Federal 
strategy.
    Governor Fortuno. Exactly.
    Mr. McCaul. I know you have come forward with a plan of 
your own in terms of creating one. What would be your top 
priorities in that type of strategy and that plan?
    Governor Fortuno. Well, first of all, we need to identify 
existing resources and be able to create a comprehensive 
interagency strategy for the region that includes and 
encompasses both the U.S. Virgin Islands and Puerto Rico.
    Mr. McCaul. We talk about resources. These are obviously 
tough budgetary times, but this is such a critical area. We 
have seen a 30 percent increase in narcotics coming through 
this region as we seal the Southern Border, and we are seeing 
an increase of this flow of trafficking, and yet as you stated, 
there is no Federal strategy. What would you need and what 
needs to be done in terms of shifting a focus of resources to 
Puerto Rico and to the rest of the Caribbean?
    Governor Fortuno. This would entail protecting our coasts. 
In the case of just Puerto Rico, we have over 300 miles of 
coast that has to be protected. As I mentioned earlier, we are 
doing what we need to do in terms of all the cargo coming in. 
We are handling at this moment 92 percent of the domestic 
cargo, with reviewing everything that is in those containers. 
We have just entered into an agreement with CBP to be able to 
also inspect international cargo. We must make sure that CBP 
indeed has the resources, working alongside with us, to be able 
to handle that. Otherwise, we will provide the resources. We 
don't have a problem with that. Second, we need the resources 
to protect our coastline. That will require, for example, fixed 
wing airplanes that at this moment operate out of Florida, but 
have to cover the Caribbean, which makes little sense, and 
vessels as well. The eastern side of Puerto Rico at this very 
moment, which is the closest to the USVI, does not have a 
vessel, a Coast Guard vessel, permanently operating in that 
area. We have seen an upsurge in not just drug trafficking in 
the region, but of drug-related violence as well.
    Actually, I mentioned one of our joint strike forces with 
the Federal Government encompasses working on illegal crimes, 
and actually violent crimes with illegal arms. We are expanding 
that initiative to two eastern sectors or regions, police 
regions because of the upsurge we have noticed in drug 
trafficking and violence in that part of the island.
    Mr. McCaul. I close just by saying Puerto Rico is part of 
the United States. These are American citizens. I believe that 
the Federal Government needs to do a better job protecting 
them. With that, my time has expired. I now recognize the 
Ranking Member.
    Mr. Keating. Thank you, Governor, for your testimony. You 
mentioned in your testimony the origination points of some of 
the drugs that come to Puerto Rico. You mentioned the Colombia 
and Venezuela area. As you know, Venezuela in particular does 
not allow U.S. Customs to examine baggage, cargo, airplane 
passengers, and other things. How is Puerto Rico affected by 
Venezuela's refusal to protect global passengers, given the 
fact that it is indeed, as you mentioned, that region is a 
major drug origination point?
    Governor Fortuno. That is an excellent question, because 
indeed, we have seen a lot of the drug trafficking coming from 
cocaine-producing countries coming through Venezuela and the 
Dominican Republic. In the case of Venezuela, to the extent 
that there is no cooperation between our Federal Government and 
that government, we do have a problem. It is imperative that, 
to the extent that we can, we do something about it.
    Short of that, however, then what we need is to protect our 
coastline, both in the case of Puerto Rico and the U.S. Virgin 
Islands, because we know that there are speed boats and small 
planes dropping some of that cocaine in our region. It is 
actually creating a level of violence that we had not seen 
ever.
    Mr. Keating. Thank you, Governor.
    The Puerto Rican Trust Fund is one income source that is 
available without need of Congressional appropriations. The 
fund has certainly taken a drop. It dropped from 2010 to 2011, 
collections dropped from $95 million to just $65 million. One 
of the results of that was the closure of the CBP office in 
Puerto Rico. So is there any mechanism of oversight, or is 
there any way that you are planning to try and restore or 
supplement those funds?
    Governor Fortuno. Let me tell you, we are all facing 
tremendous fiscal challenges, both at the Federal level and the 
State level. I recognize that. I must tell you that part of the 
trust fund is supposed to be used by local police forces. We 
have, given the pressing needs for a greater presence at the 
Federal level in terms of policing and law enforcement, we have 
actually agreed to use some of the funding to be used by the 
Federal Government. It is something that may not be happening 
in other States. But in the case of Puerto Rico, this is our 
No. 1 priority. So we don't have a problem with utilizing the 
trust fund for those purposes, even if it is being used by the 
Federal Government as opposed to the State government.
    Mr. Keating. Is there any oversight or means of--what 
resulted in that decline, do you know in particular?
    Governor Fortuno. Actually, there has been an upsurge in 
the number of seizures that we have jointly done in terms of 
assets, both real estate assets as well as other assets, like 
airplanes and boats and what have you, as well as cash. So I 
would not have an answer for that.
    But I know at this very moment, our police superintendent 
has been--and our attorney general at the State level have been 
asking questions of the Federal Government as to what is 
happening, and we haven't had any specific answers as of today.
    Mr. Keating. Governor, you mentioned some of the programs 
that I think really are at the root of dealing with things in 
terms of having people get a stake in the community because 
that is the way you deal with gangs, and that is the way you 
deal with drugs. So I commend you on those programs, and I 
commend the families.
    You know, in my own State, when we went to change the laws 
and the statutes, it was the involvement of victims' families 
that moved things and moved things along, and I want to thank 
them for their presence here today.
    With that, I will now yield back my time.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Again, Governor, welcome to the committee.
    I don't think there is anyone on this committee who is not 
supportive of providing as many resources as we can humanly and 
fiscally support. I am concerned that CBP closed the Air and 
Marine Office in San Juan, and I am concerned that so much of 
the area around you, for lack of a better term, the assets are 
not there. The ones that we claim respond are so far away that 
many incidents are just, the interdictions don't occur because 
of that.
    But I think the other issue for a lot of us, and I want you 
to explain it, there have been a number of reports about the 
improvements that you are making within the Puerto Rican Police 
Department. Explain that to the committee, please.
    Governor Fortuno. By all means, and thank you for the 
opportunity certainly. When I came into office, none of us knew 
about the DOJ investigation. We found out a few months into our 
administration, but with no excuses at all or delays, we went 
to work. But what I did was I personally met with personnel 
from DOJ and asked them, you know, who would you hire if you 
were in my position to make sure that we indeed professionalize 
our police force and I implement adequate procedures? We hired 
those that they recommended. Ever since then, we have taken 
swift and decisive action indeed to start changing a culture 
that took decades to develop, for lack of proper training, I 
would say, and resources.
    For example, I will give you an example. Use of force. We 
didn't have a use of force policy in the police force. We 
developed a use of force policy with the assistance of outside 
counsel as I mentioned earlier. We consulted with DOJ, and once 
we were on the same page on that one, this is before any report 
being issued by DOJ, we started training our police force. 
Today, almost will 15,000 of our police men and women have been 
already trained on the use of force.
    Another topic that is very close to my heart is domestic 
violence. Now, at least we felt that our police force was not 
properly trained in dealing with that domestic violence, and 
perhaps many cases of domestic violence were going unreported 
because of that. So we, again, established a policy on that, 
and we have trained already over 2,000 police men and women of 
our force in all the regions of the island to make sure that 
they have, they are sensitive to these cases, and we have also 
brought in the municipal police forces to assist us in this in 
addition to not-for-profit organizations that indeed are so 
helpful in these situations.
    I could go on and on and on, but bottom line here is that 
there is a moral commitment that I have to indeed make sure 
that we provide Constitutional policing to our constituents at 
the same time that we provide needed, the needed resources for 
our constituents to feel safe at home.
    The problem I have today is that no one feels safe at home 
unless we do more. We are working very closely with our sister 
agencies at the Federal level at the local offices level, but 
we don't feel that Washington has understood how serious the 
situation is. They need help. We need help as well.
    Mr. Thompson. Thank you very much.
    Mr. Chairman, I would like to enter into the record another 
report referencing the police department there that the 
Governor is working to improve.
    Mr. McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The document, ``Island of Impunity: Puerto Rico's Outlaw Police 
Force,'' American Civil Liberties Union, has been retained in committee 
files and is available at http://www.aclu.org/human-rights/island-
impunity-puerto-ricos-outlaw-police-force.
---------------------------------------------------------------------------
    Mr. Thompson. I yield back the balance.
    Mr. McCaul. The Chairman now recognizes the gentleman from 
Missouri, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman, and I thank you, 
Governor, for being here and also the family of the victim. 
Really, really your presence here means a lot because it really 
helps when you put a name and a face to these stories. 
Statistics are statistics. You know when you sit here all day 
and talk about how many murders there are, but until you put a 
name and a face to them, it really doesn't have any teeth. It 
doesn't mean anything. So thank you for being here. I know it 
is not an easy thing to do.
    Governor, when you talked directly to the President and 
directly to the Attorney General about these issues, a second 
ago in your last comment there, you said that the Government 
doesn't really understand the problem or acknowledge the 
problem. Were you talking one-on-one with the President, one-
on-one with the Attorney General? Surely they understand it, so 
what do they tell you? Where is the big hang-up with giving you 
the help that you need?
    Governor Fortuno. Congressman, I wish I knew. I--at the end 
of the day, at least in my town, we say that you demonstrate 
how committed you are to solving a problem by doing something 
about it. Nothing has been done about it. That is the bottom 
line here.
    Mr. Long. When did you start down this road, when did you 
first start asking, saying: Hey, guys, we got a problem here.
    Governor Fortuno. My first year in office.
    Mr. Long. Which was 2009?
    Governor Fortuno. Two-thousand-nine, exactly. My first 
meeting was with Secretary Napolitano. Then I met with Attorney 
General Eric Holder; his assistant attorney general, Lanny 
Breuer; Assistant Attorney General Laurie Robinson in November 
of that year as well. DEA, Director of Operations for DEA Tom 
Harrigan. November as well with vice commandant of the Coast 
Guard, David Pekoske. November of that year as well the 
director of the Office of National Drug Control Policy, even 
with the NYPD Commissioner Ray Kelly.
    Then I went down the list. I met two or three times with 
the Attorney General. I met with the President, as mentioned 
before. Actually, if you wish, I could provide to the committee 
a list of not just the meetings since 2009, and Mr. Pierluisi 
has accompanied me in almost every one of those meetings, but 
also all of the correspondence that we have been sending since 
2009 to the administration so that we proposed that we put 
together a task force back in 2009 to deal with America's 
Caribbean Border, and to this day, nothing has happened.
    Mr. Long. So you can't show us their responses because 
there have been no responses.
    Governor Fortuno. None whatsoever, and I am not alone in 
this, and it is not just Governor de Jongh and I. I have not 
just all of the correspondence on the list of meetings. I have 
and I may submit for the record in the committee a letter that 
today eight Governors from the Nation's States are sending to 
the President asking for this type of commitment.
    Mr. Long. Do they give you no answers whatsoever? Do they 
say, we don't have the resources; you all have to take care of 
yourselves? Do they tell you anything?
    Governor Fortuno. We have had very pleasant meetings and 
actually access to everyone within DOJ, for example.
    Mr. Long. But no answers.
    Governor Fortuno. But there are no results. At the end of 
the day, there is nothing coming back other than you know 
planning the next meeting. We are, you know, at the end of the 
day, I need results. We all, again, we all have limited 
resources, but to the extent that we can work together--the 
example I have given as to what I do on a regular basis with 
the Federal agencies, I chair a regular meeting with other 
heads of the Federal agencies in Puerto Rico to make sure that 
we are working together. I go with them on raids at 5 in the 
morning into public housing projects, the poor part, what have 
you. I am there in the front lines because they deserve no 
less. They are risking their lives along with ours.
    Mr. Long. We have innocent people being killed daily----
    Governor Fortuno. Indeed.
    Mr. Long. Like the family that is here today. It is 
repulsive that you can't get answers. I am sorry, but it is.
    Governor Fortuno. They deserve an answer.
    Mr. Long. If they want to tell you, we don't have any 
money, we can't do it, that is one thing. Let us address that. 
But if you have got a problem, you have got to find a solution. 
Then you have got to build a path to that solution.
    Governor Fortuno. Again, it is not because we are not 
trying. I have tried----
    Mr. Long. I know you are, and I am not getting on you, I am 
just saying in this town, I would say if you want to make a lot 
of money, just move to Washington and open a smoke-and-mirror 
shop and a rug-and-broom shop because all we do is sweep things 
under the rug here, but this is not something that should be 
swept under the rug. I am sorry.
    I yield back.
    Mr. McCaul. I thank the gentleman. Just a quick question. 
Have you received any responses from these letters that you 
sent?
    Governor Fortuno. I do. I have received them, and I will be 
happy to share the responses, but at the end of the day, they 
are not responsive in the sense that we plan--am planning the 
next meeting and what we should do. That is why I brought to 
the attention of the committee, and I thank you all for you 
being here this morning because at the end of the day, I 
respond to my constituents.
    Mr. McCaul. If there is no objection, I would like to 
submit those letters into the record.
    Without objection.
    [The information follows:]

TIMELINE FOR GOVERNOR LUIS FORTUNO'S MEETINGS WITH: U.S. DEPARTMENT OF JUSTICE, DEPARTMENT OF HOMELAND SECURITY,
                                  CONGRESSIONAL MEMBERS, AND OTHERS--2009-2012
----------------------------------------------------------------------------------------------------------------
                Date                             Meetings With                             Purpose
----------------------------------------------------------------------------------------------------------------
June 2009..........................  Department of Homeland Security        To discuss the proposed Border
                                      (DHS), Secretary Janet Napolitano.     Facilitation Pilot Program for Luis
                                                                             Munoz Marin Airport and other
                                                                             issues of cooperation between DHS
                                                                             and local law enforcement.
October 2009.......................  FEMA, Administrator Craig Fugate.....  To discuss FEMA's partnership with
                                                                             Puerto Rico, as well as the
                                                                             response to the explosions and
                                                                             fires that struck the island.
November 2009......................  Department of Justice (DOJ), Attorney  To discuss the need for increased
                                      General Eric Holder DOJ, Assistant     collaboration between the Federal
                                      Attorney General Lanny Breuer DOJ,     and territorial law enforcement
                                      Assistant Attorney General Laurie      agencies, and the need for
                                      Robinson.                              additional resources, training, and
                                                                             assistance from the Federal
                                                                             Government to help local law
                                                                             enforcement combat the trends in
                                                                             crime.
November 2009......................  Drug Enforcement Agency (DEA),         To request for adequate resources in
                                      Director of Operations Thomas          order to properly combat against
                                      Harrigan.                              crime on the island.
November 2009......................  Vice Commandant of the Coast Guard,    To discuss the need for increased
                                      David Pekowske.                        collaboration between the Federal
                                                                             and territorial law enforcement
                                                                             agencies, and the need for
                                                                             additional resources, training, and
                                                                             assistance from the Federal
                                                                             Government to help local law
                                                                             enforcement combat the trends in
                                                                             crime.
November 2009......................  Office of National Drug Control        To discuss the need for increased
                                      Policy (ONDCP), Director R. Gil        collaboration between the Federal
                                      Kerlikowski.                           and territorial law enforcement
                                                                             agencies, and the need for
                                                                             additional resources, training, and
                                                                             assistance from the Federal
                                                                             Government to help local law
                                                                             enforcement combat the trends in
                                                                             crime.
October 2010.......................  New York City Police, Commissioner     To establish a collaborative
                                      Ray Kelly.                             partnership between the PRPD and
                                                                             the NYPD. Also, to discuss new
                                                                             training programs for Puerto Rico's
                                                                             police.
December 2010......................  DOJ, Attorney General Eric Holder and  To discuss police corruption arrests
                                      Associate Attorney General Thomas      in October 2010 and police reform
                                      Perrelli.                              efforts.
January 2011.......................  DOJ, Assistant Attorney General        To discuss PR Police Reforms and the
                                      Thomas Perez.                          USDOJ Investigation.
February 2011......................  DOJ, Assistant Attorney General        To discuss the efforts to reform and
                                      Thomas Perrelli and various USDOJ      improve PR's law enforcement
                                      divisions.                             agencies and to express the need to
                                                                             these agencies for resources,
                                                                             training, and technical assistance.
June 2011..........................  President Barack Obama (Puerto Rico).  To discuss various Federal issues
                                                                             impacting Puerto Rico including
                                                                             public safety and law enforcement
                                                                             concerns.
July 2011..........................  Customs and Border Protection (CBP),   To discuss the need for increased
                                      Deputy Commissioner David Aguilar.     coordination between CBP and local
                                                                             law enforcement as well as
                                                                             increased attention from CBP to
                                                                             issue of drug trafficking.
September 2011.....................  DOJ, Assistant Attorney General        To discuss PR Police Reforms and the
                                      Thomas Perez (Puerto Rico).            release of the USDOJ Civil Rights
                                                                             Division's report on the PR Police.
September 2011.....................  DOJ, Assistant Attorney General        To discuss follow-up to the USDOJ
                                      Thomas Perez.                          Civil Rights report on the PR
                                                                             Police.
September 2011.....................  DOJ, Assistant Attorney General        To discuss the on-going process with
                                      Thomas Perrelli.                       the Civil Rights Division and the
                                                                             President's Task Force on Puerto
                                                                             Rico's Status.
January 2012.......................  U.S. Senator, Marco Rubio; Seventh     A briefing on the U.S. Coast Guard's
                                      Coast Guard District Commander, Rear   drug interdiction efforts. The
                                      Admiral William D. Baumgartner;        briefing was provided by Rear
                                      Miami Dade County Commissioner,        Admiral Baumgartner, Commander of
                                      Rebecca Sosa.                          the Seventh Coast Guard District.
                                                                             The Admiral discussed the Coast
                                                                             Guard's readiness in South Florida
                                                                             and Puerto Rico as it relates to
                                                                             port security and counter-drug
                                                                             operations.
February 2012......................  Heritage Foundation..................  Provided a policy briefing on the
                                                                             challenges facing the U.S.-
                                                                             Caribbean Border, especially
                                                                             regarding increased drug
                                                                             trafficking and violence affecting
                                                                             U.S. citizens in the region.
February 2012......................  DHS, Assistant Secretary for IGA       To discuss the Public Safety and Law
                                      Betsy Markey (Puerto Rico).            Enforcement Working Group of the
                                                                             President's Task Force.
February 2012......................  DOJ, Associate Attorney General        To discuss the challenges facing the
                                      Thomas Perrelli; White House,          U.S.-Caribbean Border regarding the
                                      Director for the Domestic Policy       increase in drug trafficking and
                                      Council Cecilia Munoz; DHS, Deputy     violence affecting U.S. citizens in
                                      Secretary Jane Holl Lute; DHS, IGA     the region.
                                      Assistant Secretary Beth Markey;
                                      ONDCP, Director R. Gil Kerlikowske.
February 2012......................  DOJ, Deputy Attorney General James     To discuss the challenges facing the
                                      Cole.                                  U.S.-Caribbean Border regarding the
                                                                             increase in drug trafficking and
                                                                             violence affecting U.S. citizens in
                                                                             the region.
February 2012......................  CBP, Acting Commissioner David         To discuss the challenges facing the
                                      Aguilar.                               U.S.-Caribbean Border regarding the
                                                                             increase in drug trafficking and
                                                                             violence affecting U.S. citizens in
                                                                             the region.
February 2012......................  U.S. Coast Guard, Director of          To discuss the challenges facing the
                                      Response Policy--Rear Admiral Cari     U.S.-Caribbean Border regarding the
                                      Thomas.                                increase in drug trafficking and
                                                                             violence affecting U.S. citizens in
                                                                             the region.
June 2012..........................  Joint Interagency Task Force South,    To discuss efforts made at the State
                                      Commander--Admiral Charles Michel;     and Federal levels to jointly
                                      U.S. Attorney for the District of      combat drug trafficking in the
                                      Puerto Rico, Rosa Emilia Rodriguez     Caribbean region of the United
                                      (Puerto Rico).                         States.
June 2012..........................  DEA, Director of Operations Thomas     To discuss the joint efforts that
                                      Harrigan; DEA--Puerto Rico Director    are taking place between the
                                      Pedro J. Janer (Puerto Rico).          Federal and local agencies of law
                                                                             and order in Puerto Rico.
----------------------------------------------------------------------------------------------------------------


 TIMELINE ON LETTERS FROM GOVERNOR LUIS FORTUNO TO: U.S. DEPARTMENT OF JUSTICE, DEPARTMENT OF HOMELAND SECURITY,
                                 CONGRESSIONAL MEMBERS, AND OTHERS--2010 TO 2012
----------------------------------------------------------------------------------------------------------------
                Date                                Sent To                           Purpose of Letter
----------------------------------------------------------------------------------------------------------------
February 1, 2010...................  Department of Justice (DOJ) Attorney   To recommend the establishment of a
                                      General, Eric H. Holder, Jr.           Federal law-enforcement inter-
                                                                             agency working group comprised of
                                                                             representatives from various
                                                                             departments and agencies. The group
                                                                             would assist PR in identifying
                                                                             potential funding, technical
                                                                             assistance and training, as well as
                                                                             to improve coordination across
                                                                             Federal agencies in order to help
                                                                             combat the serious-and-worsening
                                                                             crime problem on the island.
October 19, 2010...................  DOJ Attorney General Eric H. Holder,   To express the need to reform the
                                      Jr..                                   Puerto Rico Police Department
                                                                             (PRPD). As well as a meeting
                                                                             request with AG Holder to discuss
                                                                             how the PR government can cooperate
                                                                             with the DOJ in achieving the
                                                                             mutual goal of reforming the PRPD.
January 3, 2011....................  DOJ Attorney General Eric H. Holder,   To notify AG Holder of the newly-
                                      Jr..                                   created Task Force by Governor
                                                                             Fortuno, that would focus on:
                                                                             Professionalizing the PRPD, reform
                                                                             the criminal justice & correction
                                                                             systems, and establish cooperative
                                                                             law enforcement efforts. The letter
                                                                             also seeks: Technical assistance,
                                                                             advice, recommendations, and
                                                                             resources in order to carry out
                                                                             these tasks.
July 19, 2011......................  U.S. Customs and Border Protection     To reiterate the importance of
                                      (CBP) Deputy Commissioner, David       providing public safety for U.S.
                                      Aguilar.                               citizens in PR by protecting the
                                                                             U.S.-Caribbean Border. Also, to
                                                                             request additional resources to
                                                                             address the drug trafficking
                                                                             problem in PR.
January 11, 2012...................  DOJ Attorney General Eric H. Holder,   To express grave concerns about the
                                      Jr..                                   continued increase in drug-related
                                                                             violence in PR and to again request
                                                                             the support and collaboration of
                                                                             the DOJ in combating this
                                                                             widespread problem.
January 11, 2012...................  Office of National Drug Control        To express grave concerns about the
                                      Policy, Director R. Gil Kerlikowski.   continued increase in drug-related
                                                                             violence in PR and to again request
                                                                             the support and collaboration of
                                                                             this office in combating this
                                                                             widespread problem.
January 11, 2012...................  Secretary of Homeland Security (DHS),  To express grave concerns about the
                                      Janet Napolitano.                      continued increase in drug-related
                                                                             violence in PR and to again request
                                                                             the support and collaboration of
                                                                             DHS in combating this widespread
                                                                             problem.
January 18, 2012...................  DOJ Attorney General Eric H. Holder,   To request a DOJ official to serve
                                      Jr..                                   on temporary assignment in the
                                                                             Office of the Governor, La
                                                                             Fortaleza. Puerto has been
                                                                             experiencing the worst violence
                                                                             wave in its history. Expertise is
                                                                             needed in order to properly assist
                                                                             the government with working on this
                                                                             serious issue.
January 31, 2012...................  CBP Deputy Commissioner, David         To express grave concerns about the
                                      Aguilar.                               continued increase in drug-related
                                                                             violence taking place in PR and to
                                                                             again request CBP's support and
                                                                             collaboration in combating this
                                                                             widespread problem.
February 9, 2012...................  U.S. Senator, Marco Rubio............  To thank Senator Rubio for arranging
                                                                             a Coast Guard briefing in Miami,
                                                                             and for his support and
                                                                             collaboration on a U.S.-Caribbean
                                                                             Border Security Initiative to
                                                                             overcome the crime and drug
                                                                             challenges facing PR.
February 9, 2012...................  Seventh Coast Guard District           To thank rear Admiral Baumgartner
                                      Commander, Rear Admiral William D.     for providing a Coast Guard
                                      Baumgartner.                           briefing in Miami, and to request
                                                                             his input on a comprehensive U.S.-
                                                                             Caribbean Border Security
                                                                             Initiative effort to help address
                                                                             this region-wide crime and drug
                                                                             trafficking problem.
February 9, 2012...................  Miami Dade County Commissioner,        To thank Commissioner Sosa, for her
                                      Rebecca Sosa.                          participation in the briefing held
                                                                             by the Seventh Coast Guard District
                                                                             Command on the U.S. Coast Guard's
                                                                             drug interdiction efforts and for
                                                                             helping highlight the growing
                                                                             threat that drug traffickers pose
                                                                             to the Nation.
February 9, 2012...................  Miami-Dade County Mayor, Carlos A.     To thank Mayor Gimenez, for his
                                      Gimenez.                               participation in the Coast Guard
                                                                             briefing where they shared the
                                                                             important mission that the Miami
                                                                             command carries out every day to
                                                                             help protect citizens in both
                                                                             Puerto Rico and Florida.
March 30, 2012.....................  White House: President's Task Force    To urge the Task Force to consider
                                      on Puerto Rico Co-Chair Cecilia        developing a comprehensive U.S.-
                                      Munoz.                                 Caribbean Border Initiative similar
                                                                             to the efforts being deployed along
                                                                             the U.S. Southern and Northern
                                                                             Borders. Also, to express concern
                                                                             regarding the decrease in funding
                                                                             that PR/USVI HIDTA has experienced
                                                                             over the past few years.
March 30, 2012.....................  Office of National Drug Control        To reiterate several concerns over:
                                      Policy, Director R. Gil Kerlikowski.   The exclusion of PR from the
                                                                             National Drug Contral Strategy, the
                                                                             need for a comprehensive U.S.-
                                                                             Caribbean Border Initiative, the
                                                                             request for PR to be included in
                                                                             the National Household Survey on
                                                                             Drug Use and Health administered by
                                                                             SAMHSA, and the decrease in funding
                                                                             for the PR/USVI HIDTA program.
April 20, 2012.....................  CBP, Commissioner David Aguilar......  To notify Commissioner Aguilar that
                                                                             the Government of PR incorporated
                                                                             the revisions to Puerto Rico Ports
                                                                             Authority Regulation No. 8067,
                                                                             recommended by CBP into an
                                                                             amendment approved on April 18,
                                                                             2011. This regulation will allow
                                                                             both agencies to perform their
                                                                             duties and inspect all commercial
                                                                             cargo, domestic and international,
                                                                             that arrives at PR.
May 21, 2012.......................  CBP, Commissioner David Aguilar......  To reiterate several concerns and
                                                                             requests for assistance regarding
                                                                             the following topics: The need to
                                                                             re-assess the fiscal stability of
                                                                             the PR Trust Fund, the personnel
                                                                             vacancies at CBP and reduction in
                                                                             flight hours for the Caribbean Air
                                                                             & Marine Branch in PR, and the
                                                                             proposal for the implementation of
                                                                             a Border Facilitation Program at
                                                                             San Juan's International Airport.
May 23, 2012.......................  Commander, U.S. Southern Command,      To request assistance in ensuring
                                      General Douglas Fraser.                thar PR is included in the National
                                                                             strategy to address the threats of
                                                                             transnational drug and criminal
                                                                             organizations operating in the
                                                                             region.
May 24, 2012.......................  Homeland Security Subcommittee on      To request that Chairman McCaul hold
                                      Oversight, Investigations, and         a hearing to underscore the role
                                      Management, Chairman Michael McCaul.   the Federal Government must play in
                                                                             securing all the Nation's borders,
                                                                             including the U.S.-Caribbean
                                                                             Border.
----------------------------------------------------------------------------------------------------------------

    [Note.--The letters referenced in the summary tables above have 
been retained in committee files.]
                                 ______
                                 
                Letter From Governors to President Obama
                                     June 20, 2012.
The President,
The White House, Washington, DC.
    Dear Mr. President: As Governors in the Eastern and Southern United 
States, we share a common concern for the safety of our citizens, and 
we know you share this concern. Nothing is more important.
    We are requesting your support on a matter that affects us all--the 
growth of drug-related violence along the U.S.-Caribbean Border.
    An estimated 70 to 80 percent of the Colombian cocaine reaching 
Puerto Rico via Venezuela and the Dominican Republic is destined for 
the streets of communities in the South, Midwest, and Eastern United 
States. In total, an estimated 30 percent of illegal drugs now reaching 
the U.S. mainland transits through the Caribbean.
    The drug trade has in turn made Puerto Rico and the U.S. Virgin 
Islands (USVI) a major destination for illicit drug money and illegal 
firearms coming from U.S. mainland drug networks and is leading to an 
increase in related violence. Puerto Rico and the USVI are currently 
experiencing a murder rate that is exponentially higher than the 
National average, with almost three-quarters of these related to the 
drug trade.
    This issue requires a National strategy, similar to that given to 
the Southwest and Northern Borders. We have joined together to urge you 
to establish a U.S.-Caribbean Border Initiative to be led by the White 
House and the Office of National Drug Control Policy (ONDCP).
    Right now, Puerto Rico and the USVI are serving on the front lines. 
We need help in fighting this battle along the Caribbean Border, so 
that we do not have to fight these drug criminals on the streets of our 
States. If we work together, we can win this fight.
            Sincerely,
                                  Governor Luis G. Fortuno,
                                                       Puerto Rico.
                                Governor John deJongh, Jr.,
                                               U.S. Virgin Islands.
                                       Governor Rick Perry,
                                                             Texas.
                                      Governor Bill Haslam,
                                                         Tennessee.
                                Governor Steven L. Beshear,
                                                          Kentucky.
                                   Governor Robert Bentley,
                                                           Alabama.
                                        Governor Mike Beebe
                                                          Arkansas.
                                      Governor Mary Fallin,
                                                          Oklahoma.

    Mr. McCaul. The Chairman now recognizes the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Governor Fortuno, it is good to see you. Thank you for 
being here.
    Governor Fortuno. Likewise.
    Mr. Davis. Let me thank you for your very comprehensive and 
eloquent testimony regarding the conditions in Puerto Rico and 
other parts of the Caribbean.
    I was very interested to hear your outline. I also want to 
thank my colleagues, Delegate Christensen and Resident 
Commissioner Pierluisi because I have discussed this issue with 
both of them, and I have had opportunity to visit both Puerto 
Rico and the Virgin Islands.
    Of course, I am from Chicago, Illinois, which could be 
called little Puerto Rico, I guess, because we probably have 
more citizens who have either migrated from Puerto Rico to 
Chicago or people who travel frequently back and forth. So when 
you look at Chicago and you look at the Midwest, period, there 
are just large numbers of Puerto Ricans who move back and forth 
from both places.
    I was also pleased to hear you mention some of your crime-
fighting techniques, especially CeaseFire, because until a few 
months ago, the director of that program was my next-door 
neighbor, and so I saw him practically everyday as we would 
leave home for work. So I am very familiar with CeaseFire and 
the techniques and how effective they have been.
    Let me ask you, and I know it is very difficult to 
comprehensively deal with an issue or a problem that affects 
not only the immediacy of one's environment but the role that 
all of the surrounding areas play. I think you, like many of 
the rest of us have felt and feel frustrated when we look at 
the resources that are available to approach the issues.
    But how much of a role do you think our budget crisis--and 
for as long as I have been around here, it seems as though we 
have been reducing resources, that there seems to be some 
Members of this body who think that somehow you can get rain 
without thunder and lightning.
    So if the budget is always being reduced and all we are 
doing is cutting, cutting, cutting, that means that the 
resources are not available in the same way to deal with the 
issues that you raise.
    How much of a role Nationally do you think budget-cutting 
has had on the ability to deal with the issues you raised?
    Governor Fortuno. First, if I may make a comment on 
CeaseFire, and actually, I am glad you are familiar. I assume 
you were familiar with the program in your area in Chicago, and 
actually we hired people from the University of Chicago, 
Illinois, Chicago campus, came down and what we did was we 
brought them together with a local community organization, not-
for-profit organization, and they are the ones handling the 
program. We just actually provided the funding for them to be 
able to have the resources come down from your district to 
address this, and so far, the result has been extraordinary, I 
must say.
    Actually, we started it in what probably the poorest, if 
not one of the poorest towns in Puerto Rico, Loiza, and the 
murder rate has started coming down significantly, and I 
attribute some of that at least to CeaseFire.
    Having said that, we are all facing fiscal constraints. I 
am personally familiar because at the State level, that is 
exactly what is happening. I am not here asking entirely for 
more funding. I am asking for the resources that exist to be 
brought to bear in a comprehensive initiative in the same way 
that we have as a Nation in the initiative in the Southwestern 
Border and the Northern Border to bring together the resources 
and make sure that they start collecting the data.
    It is unbelievable that you look at what is supposed to be 
the Nation's drug strategy documents, and you look at the data, 
and both Puerto Rico and the USVI are excluded more than half 
of the time. So it is just starting to collect the data, which 
we haven't been able to get the agencies to do that, and I am 
talking specifically about Owens DCP.
    Second, there are other resources to protect, you know, our 
coastline that may be moved around.
    Third, for example, a search. There is a reason why we 
cannot bring a search of some of the law enforcement agencies 
at the Federal level like DEA or ATF with existing resources 
that may be underused at this moment somewhere else and 
actually address this issue both in the USVI and Puerto Rico. 
So there are ways in which we had a National strategy in which 
we could bring to bear existing resources to address this issue 
use appropriately.
    Mr. Davis. So you are saying we really could do a better 
job of coordinating----
    Governor Fortuno. Exactly.
    Mr. Davis [continuing]. Resources that are available and 
pay more attention to the Caribbean and Puerto Rico to have 
more equity relative to how we use them.
    Thank you, Mr. Chairman.
    Mr. McCaul. Thank you for raising that important point.
    Members are advised we have votes probably scheduled within 
the next 30 minutes.
    With that, I recognize the former U.S. Attorney and the 
gentleman from Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you, Mr. Chairman.
    Governor, thank you for being here, and it is good to see 
you again.
    Governor Fortuno. Thank you.
    Mr. Marino. Your sincere passion is obvious, and I commend 
you on that. I also want to extend my deepest sympathies and 
condolences to the families--to the family that is here and to 
additional families in Puerto Rico that have lost loved ones.
    We have a finite amount of revenue and an infinite number 
of problems. So we have to be very meticulous about how we 
share those resources.
    Let us step back a little bit and unite a discussion about 
our experiences of being on the front line and actually going 
out with agents, going out on raids, going out on busts, and 
can you give me any indication of what happens to the cash, if 
there is cash, that you confiscate, and do you go after assets 
of the drug cartels and the drug dealers, and do you have 
access to any of those funds?
    Governor Fortuno. Of course, and normally we have strike 
forces at joint Federal-State agencies that work together in 
these raids. Even though most officers involved in those raids 
are State officers, oftentimes because of jurisdictional 
reasons, we prefer that they be processed at the Federal level.
    We go, of course, go after assets. We have been going after 
assets aggressively, and we have dismantled a number of 
international criminal organizations with major presence in 
Puerto Rico, South America, the Dominican Republic, Florida, 
New York, New Jersey, Boston, and other places.
    Mr. Marino. Do you receive any of those assets?
    Governor Fortuno. We are supposed to receive a percentage 
depending on--there is a formula.
    Mr. Marino. Sure.
    Governor Fortuno. We are supposed to receive that funding. 
At this very moment, we have some questions, we have raised 
some questions with our sister agencies at the Federal level 
because even though we agree or we have agreed to use some of 
that funding to fund Federal agencies operations to Puerto 
Rico, which is not done in other States.
    Mr. Marino. Do you have any other type of understanding or 
memorandum of understanding as to how much proceeds you get?
    Governor Fortuno. We do have. We do have that and we could 
get that for the committee.
    Mr. Marino. Are you receiving that?
    Governor Fortuno. No, we are not at the level that we are 
supposed to.
    Mr. Marino. All right. I will follow up on that.
    Governor Fortuno. Of course. I will provide you with the 
information. We will be happy to do so.
    Mr. Marino. How could you increase your investigations and 
arrest and prosecutions, to what degree, if you had these 
assets?
    Governor Fortuno. Well, again, working jointly with our 
sister agencies at the Federal level, we have been able to 
bring to bear some technology that at the State level we 
lacked. At the same time, the Federal Government has assets and 
capabilities that the State government at least, given our 
Constitutional framework, would not have.
    Mr. Marino. I assume we are talking about millions of 
dollars.
    Governor Fortuno. Of course. What we do is we work jointly, 
and that is where the rates come in and we dismantle some of 
these organizations because we are using technology. We are 
intercepting communications, some of them international 
communications.
    Mr. Marino. Excuse me. I only have a couple of minutes so I 
want to get through the questions. It is not difficult to share 
the technology. It is difficult to have actual bodies. Can you 
give us any indication or is that better left for the next 
panel on how many bodies you would need to significantly bring 
these cartels to their knees, if not eliminate them?
    Governor Fortuno. I am not an expert on that. At the very 
least, we are asking for all of the vacancies to be filled in 
those Federal agencies that operate in Puerto Rico and the 
USVI, but certainly I am asking for the possibility of surges 
that will bring temporarily resources to the region to address 
this issue that is affecting everyone in the country, not just 
us in the two territories.
    Mr. Marino. I will do personally whatever I can to assist 
you in Puerto Rico, and I yield back my time.
    Thank you.
    Governor Fortuno. Thank you.
    Mr. McCaul. I thank the gentleman for bringing his former 
Justice Department experience to the table, and as I 
understand, there is a--for clarification--there is a 
memorandum of understanding you have with the Federal 
Government.
    Governor Fortuno. Of course.
    Mr. McCaul. For resources and assets that is not being 
complied with?
    Governor Fortuno. Yes, Mr. Chairman, and I will be honest 
with you and I have been honest with you the whole morning. 
That is, that has been of concern to us, but our primary 
concern has been protecting the lives and safety of our 
constituents.
    Mr. McCaul. I would ask that you submit that to this 
committee.
    The Chairman now recognizes the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Okay.
    Thank you, Chairman McCaul.
    I don't have a question. I would just like to make a few 
comments with the time that I have.
    So, beginning with thanking you, Chairman McCaul and 
Ranking Member Keating, for this hearing, to renew the call for 
needed attention to the two U.S. territories that form the 
Caribbean Border of our Nation, and I also wanted to extend 
thanks to Chairman King and Ranking Member Thompson for their 
long-time support of this effort, and Congressman Thompson in 
particular for bringing the committee to the Virgin Islands to 
see our challenges first-hand a few years back, and to thank 
you all for welcoming this prodigal daughter back to the 
committee for this important hearing.
    I also want to extend welcome to our former colleague, 
Governor Fortuno, and also to Congressman Serrano, who is in 
the audience, and thank him for his support on this and so many 
issues affecting the territories.
    I was concerned when I was back on the committee about the 
illegal entry of people from as far as away as China and the 
gun and drug trade because of the fear that we would be where 
we are today. Two policemen shot as they stepped out of their 
car; one still in intensive care in Miami 1 month later; the 
father of another shot at as he was driving home; and an 
officer tortured and killed and missing for years before the 
perpetrators were found and arrested; not to mention the young 
people that I knew or took care of as a family physician who 
were killed or who are in jail; and the countless other tragic 
stories, such as the ones that you have heard from the Governor 
that are too numerous to recount here.
    Although the murder rate in the Virgin Islands is down from 
60 in 2010 in our 110,000 population to 48 last year, we 
unfortunately still have one of the highest murder rates per 
100,000 in the country.
    Our community, though, is fighting back. The wife of our 
lieutenant governor in particular with her Stop the Bleeding 
foundation. Today, in St. Thomas, Caribbean law enforcement is 
meeting on increasing our capacity as a region to combat gang 
violence, but we do need help.
    Today, the director of ATF is also in the Virgin Islands to 
meet with legislators and others to restore this valuable 
member of our law enforcement team.
    We are not the only communities. Many communities in our 
country are facing the same or similar problems with gun 
violence, but mostly it stems back to drug trafficking that is 
increasingly coming through the routes that involve the U.S. 
Virgin Islands and Puerto Rico.
    I was at the Coast Guard station in Puerto Rico with our 
colleague, the resident commissioner, a few weeks ago, and had 
the opportunity to shake the hand of the commander of the ship 
that captured 1.4 kilos of cocaine off of St. Croix in the U.S. 
Virgin Islands. That was the port's largest capture in its 
history. Earlier in the year, ICE, after a 3-year mission took 
down a northern Texas-Virgin Island's ring, also in St. Croix, 
confiscating 100 kilos of marijuana and over $400,000. But we 
need more to cover our over 100 miles of border.
    I hear so many stories from my constituents of transfers of 
God knows what at sea and out of--and small boats unloading 
passengers with pickups waiting. We are still at the mercy of 
guns that we neither manufacture or sell in the Virgin Islands, 
legally anyway, that I am greatly concerned about what we don't 
know that we don't know. We are working security agencies and 
private entities on increasing and fine-tuning our surveillance 
and intelligence. But on this, we also need your support and 
advocacy.
    Our Assistant Secretary of Interior for Insular Affairs 
Anthony Babauta held a meeting with all local and Federal law 
enforcement in the territories last year. We have a well-
integrated but incomplete team that are part of the VI-Puerto 
Rico HIDTA, led by Adjutant General Vicens and run by executive 
director Catherine Mills who is from St. Thomas, but we need 
more Federal help to help restore the safety of our communities 
and protect the lives of our children.
    This is not only important to my constituents and me, but 
it is critical to the well-being of yours and those of all of 
our colleagues.
    So we are here pleading for your help to save our community 
and yours and to protect our Nation.
    With that, I will yield back the balance of my time.
    Mr. McCaul. I thank the gentlelady and also raising the 
point of asset forfeitures seized in the Caribbean, including 
Puerto Rico, Governor, are you aware of what percentage of 
those assets forfeited and seized are moneys returned to Puerto 
Rico?
    Governor Fortuno. I will provide the MOU as soon as--I 
don't have it with me right now, but I know we have discussed 
that so far a number of times with our sister agencies at the 
Federal level.
    Mr. McCaul. I appreciate that. Thank you.
    The Chairman now recognizes the gentleman from Florida, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    Governor, welcome and thanks for your extraordinary service 
to your constituents and also thanks for coming here today to 
speak on this very critical security issue.
    As you know, Florida also faces similar concerns with 
regard to illegal trafficking and drugs and people into the 
United States.
    Combatting this activity requires a coordinated and 
dedicated effort on both fronts. I think you agree. How do you 
see a U.S.-Caribbean Border initiative aiding both of our 
borders, Florida and----
    Governor Fortuno. Of course, actually, I would say, 
Congressman, that whatever we do in America's Caribbean Border 
will have a direct effect, especially in Florida and the 
southeastern part of the country. Because many of these 
criminal organizations actually work through that, follow that 
pathway so, indeed, there will be a direct effect in the 
streets of your neighborhoods to the extent that we do the 
right thing in our two territories.
    Mr. Bilirakis. Very good. Thank you.
    Governor, in your testimony, you provide examples of 
collaboration between Puerto Rico and the Federal Government. 
Have these collaborations provided a successful model that will 
continue that we can build upon? If so, how and where can these 
collaborations be expanded? If not, could you discuss the 
difficulties that you have had? I know you have maybe 
elaborated a little bit, the difficulties that you faced.
    Governor Fortuno. I would say that the local offices of 
these Federal agencies and specifically individuals that are 
operating are operating under very tough and difficult 
circumstances. Often understaffed, and that is why we have 
State prosecutors working alongside them, State policemen and 
women working alongside them and so on and so forth, because we 
understand the importance of the work they are doing, and we 
are in this together. This case, there are no differences 
between who is working for the Federal Government or the State 
government. At the end of the day, the end result is the same. 
Protecting our constituents and guaranteeing the safety of our 
neighborhoods.
    Having said all of that, of course, I mentioned a few. For 
example, just a sheer coordination of efforts and assets will 
bring about a much better and cohesive policy that--to confront 
what I see is a war against international drug organizations 
and cartels.
    Second, a search, and it has been done in other 
jurisdictions, why not in Puerto Rico? The USVI, a search, 
temporary search to go after these organizations and dismantle 
them as well. Those are two examples.
    Mr. Bilirakis. Thank you.
    I yield back, Mr. Chairman.
    Thank you, Mr. Governor.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the gentleman from Puerto Rico, 
Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairman McCaul.
    I want to begin by thanking you for convening this hearing 
and for so graciously allowing me to participate.
    I also want to extend my gratitude to Ranking Member 
Keating, whom Governor Fortuno and I met with yesterday.
    I also want to thank full committee Ranking Member Thompson 
because he shared with me and listened to my concerns regarding 
the level of resources that are allocated to Puerto Rico and 
the VI before the start of this hearing, and he was very 
receptive to my concerns.
    I think the previous speakers have framed the issue well. 
Let me just say a few words, and then I will wait for the 
second panel to ask my questions.
    As we have heard, the U.S. territories of Puerto Rico and 
the USVI have murder rates that far exceed that of any State. 
Most of these homicides are linked to the cross-border trade in 
illegal drugs, which is primarily a Federal responsibility to 
combat.
    In the 5-year period between 2007 and 2011, the number of 
murders Nation-wide fell by over 20 percent. In that same 
period, the number of homicides in Puerto Rico rose by over 55 
percent. Imagine for a moment that this spike in violence were 
taking place in Florida. Does anyone seriously believe that 
Federal law enforcement agencies within DHS and DOJ would 
continue to conduct business as usual rather than surging 
resources to the State until meaningful progress is seen? It is 
absolutely inconceivable. Yet, that is precisely what is 
happening in the case of Puerto Rico and the VI. I have the 
numbers in front of me supplied by the agencies themselves.
    In the last several years, the number of ICE, CBP, and 
Coast Guard personnel assigned to Puerto Rico have generally 
remained stagnant. The story at DOJ is similar. In several 
component agencies, there have even been staffing reductions. 
In the rare case where we have seen an agency like the DEA 
increase its presence in Puerto Rico, that increase has been 
fairly small, and the total number of agents assigned to the 
islands still lags far behind all of the jurisdictions with 
smaller populations and lower rates of drug-related violence.
    All of the statistics point to a single conclusion: While 
Federal law enforcement officers perform courageous and often 
heroic work in Puerto Rico and the VI, the Federal Government 
as a whole has yet to respond to the public safety crisis in 
these two American territories with anything approaching the 
sense of urgency that the situation demands.
    If there is someone on the second panel who contests that 
point, I would gently ask them to show me the data that 
supports their argument. Let me be candid and kind of put this 
in perspective.
    The Governor and I speak with one voice on this. There is 
no room, there should be no room for partisan politics in 
dealing with this issue. But we have seen one thing. We don't 
question the motivation of Federal law--the Federal law 
enforcement community. I come from the law enforcement 
community. I was the attorney general in Puerto Rico in the 
mid-1990s. We know they are doing all they can.
    The coordination between the government of Puerto Rico and 
the Federal agencies could not be better. The number of 
initiatives is amazing. The number of law enforcement personnel 
from Puerto Rico dedicated to the Federal agencies is also 
unprecedented.
    What is lacking is two things. First an overreaching 
strategy. We want a counternarcotic strategy for the Caribbean 
Border, the same way we have it for the Southwest Border and 
the Northern Border, that is one thing; and second, increase of 
resources. We know these are fiscal tough times. We know it.
    But it is a matter of prioritizing. Anybody who knows about 
management knows that you need to prioritize when allocating 
resources. It cannot be business as usual. We haven't seen an 
increase, a significant increase in Federal resources in Puerto 
Rico. It is about time it happens. The same for my sister 
territory, the Virgin Islands.
    That is all I will say for now. But I look forward to 
questioning the witnesses, and again, with all due respect, 
because I know you are on the front lines and we respect what 
you do.
    Mr. McCaul. Thank you for your passion always on this 
issue.
    I just want to close by saying, you know, the 
administration has recently shown concern for 800,000 non-
citizens who aim to become Americans in the United States. I 
wish they would show the same amount of concern for the 4 
million Hispanic-American citizens living in Puerto Rico and 
the U.S. Virgin Islands.
    We have clearly heard from your testimony, Governor, of the 
threat from both cartels shipping drugs through Puerto Rico 
that eventually end up on our shores here, Texas and Florida 
and the East Coast through commercial flights, and the 
potential for a terrorist to infiltrate.
    So I think it is unacceptable, as we look as Mr. Pierluisi 
stated, that we have a northern and a southern strategy, but we 
don't have a strategy as you indicated for the Caribbean. I 
think it is unacceptable that we do not have a strategy. I hope 
that the administration--we'll hear from the next panel--will 
come together and work with you to create a comprehensive plan 
and strategy to better protect the American citizens who live 
on your island.
    With that, if you have any closing comments, Governor, I 
would be happy to give you some time.
    Governor Fortuno. Well, I just want to thank you and thank 
all of the Members of the committee, and I want to thank both 
the delegate from the U.S. Virgin Islands and our Resident 
Commissioner Pierluisi.
    As Governor, I have over and over made one central request 
to my people, to my constituents. I say, ``no te rindas,'' 
which means ``never give up.'' But the simple truth is that 
Puerto Ricans already know that because it is in our blood, as 
you just saw with Mr. Pierluisi. We never give up. We are 
fighters.
    When our backs are against the wall, when we face 
hardships, when we are truly tested, that is when we reveal our 
courage, and that is when we fight even harder and that is what 
binds us as Americans.
    So perhaps I should be directing my message to the people 
who need to hear it the most. Mr. Chairman, distinguished 
Members of this committee, do not give up on us. Do not give up 
on Puerto Rico and the USVI. Our respective citizens have 
spilled blood and died together on the same battlefields 
defending freedom, liberty, and protecting the American people 
and honoring our allegiance to the greatest Nation on Earth.
    Each of you represent a different district in your 
respective States, and while the needs of our constituents may 
vary, we always come together as American. We remain strongest 
when we are united, and that is exactly what we are asking for. 
We celebrate the culture of life in this Nation. We don't 
discriminate the value of one life over another due to 
geography, and I am not asking you to do anything against your 
own instincts and values. I am asking you to stand up for what 
you already know to be true. I am asking you to join me and 
help Puerto Rico defend this Nation effectively along the U.S.-
Caribbean Border.
    We all take responsibility and develop and enforce the 
Caribbean Border initiative. We will all reach our goals, our 
enemies cannot match our resolve working together. Help us 
fight this battle along the Caribbean so that we do not have to 
fight these threats in the neighborhoods across America. These 
criminals will seek to test us for sure, but when they do, let 
us remember that we never gave up.
    Thank you again.
    Mr. McCaul. Thank you, Governor, for your passion, your 
leadership, for bringing this issue to our attention and I 
think that when it comes to the Federal Government, we need to 
do a better job.
    So thank you for being here today.
    The committee now moves to Panel No. 2.
    Mr. McCaul. The Members are advised that we have votes 
coming up in the next few minutes. We would like to move as 
expeditiously as possible.

  JOINT STATEMENTS OF REAR ADMIRAL WILLIAM D. LEE, DEPUTY FOR 
     OPERATIONS POLICY AND CAPABILITIES, U.S. COAST GUARD, 
   DEPARTMENT OF HOMELAND SECURITY; JANICE AYALA, ASSISTANT 
 DIRECTOR FOR OPERATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, 
   DEPARTMENT OF HOMELAND SECURITY; KEVIN MC ALEENAN, ACTING 
ASSISTANT COMMISSIONER, OFFICE OF FIELD OPERATIONS, CUSTOMS AND 
BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY; AND MICHAEL 
  C. KOSTELNIK, ASSISTANT COMMISSIONER, OFFICE OF CBP AIR AND 
 MARINE, CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McCaul. Thank you. I would like to move along as 
quickly as possible. So I am just going to introduce you by 
name and then ask that you submit your opening statement for 
the record so we can move forward with the questions and 
hopefully get that done before the votes.
    At first, we have Rear Admiral William Lee, who is the 
deputy for operations policy and capabilities for the U.S. 
Coast Guard. Second, we have Ms. Janice Ayala, who is the 
assistant director for domestic operations, homeland security 
investigations for the Department of Immigration and Customs 
Enforcement. We have Mr. Kevin McAleenan, who is the acting 
assistant commissioner in the Office of Field Operations, 
Customs and Border Protection. Finally, we have General 
Kostelnik, who is the assistant commissioner, U.S. Customs 
Border Protection, Office of Air and Marine.
    [The joint statement of Admiral Lee, Ms. Ayala, Mr. 
McAleenan, and Mr. Kostelnik follows:]
Joint Prepared Statement of Michael Kostelnik, Kevin McAleenan, William 
                        D. Lee, and Janice Ayala
                             June 21, 2012
                              introduction
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, it is a pleasure to appear before you today to 
discuss the Department of Homeland Security's efforts to secure our 
Nation's borders.
    No one entity can tackle these transnational criminal enterprises 
alone. Rather, it requires a multi-agency, multi-national, and layered 
approach. To that end, U.S. Customs and Border Protection (CBP), 
Immigrations and Customs Enforcement (ICE), and the U.S. Coast Guard 
(USCG ) forge strong and cooperative relationships and work closely 
with State, local, Tribal, territorial, Federal, and international 
partners toward our mission to promote homeland security and uphold 
public safety through the criminal and civil enforcement of Federal 
laws governing border control, customs, trade, and immigration.
    To do this, DHS has deployed a multi-layered, risk-based approach 
to enhance the security of our borders while facilitating the lawful 
flow of people and goods entering the United States. This layered 
approach to security reduces our reliance on any single point or 
program that could be compromised. It also extends our zone of security 
outward, ensuring that our physical border is not the first or last 
line of defense, but one of many.
    As America's front-line border agency, CBP is responsible for 
securing America's borders while facilitating legal travel and trade. 
Over the past 3 years, the Department of Homeland Security (DHS) has 
dedicated historic levels of personnel, technology, and resources in 
support of our border security efforts. The President's fiscal year 
2013 budget request continues these efforts by supporting the largest 
deployment of law enforcement officers to the front line in our 
agency's history: More than 21,000 Border Patrol agents, 1,200 Air and 
Marine agents, and 21,100 CBP officers, all who work 24/7 with State, 
local, Tribal, and Federal law enforcement in targeting illicit 
networks trafficking in people, drugs, weapons, and money. Over the 
last year, we have brought greater unity to our enforcement efforts, 
expanded collaboration with other agencies, and improved response 
times.
    U.S. Immigration and Customs Enforcement's (ICE) mission is to 
promote public safety through the criminal and civil enforcement of 
Federal laws governing border control, customs, trade, and immigration. 
ICE's Homeland Security Investigations (HSI) directorate is responsible 
for investigating a wide range of domestic and international activities 
arising from the illegal movement of people and goods into, within, and 
out of the United States. In addition to overseeing the agency's 
international and intelligence functions, HSI investigates, among other 
things, immigration crime, human rights violations and human smuggling, 
smuggling of narcotics, weapons, and other types of contraband, 
financial crimes, cyber crime, and export enforcement issues. ICE is 
well-positioned to disrupt and dismantle transnational criminal 
organizations by targeting the illicit pathways and organizations that 
engage in the production, transportation, and distribution of illicit 
contraband.
    For more than 220 years, the U.S. Coast Guard has safeguarded the 
Nation's maritime interests and natural resources on our rivers and 
ports, in the coastal regions, and on the high seas, in the Caribbean 
region and around the world. The Coast Guard saves those in peril and 
protects the Nation's maritime border, marine transportation system, 
natural resources, and the environment. Coast Guard men and women--
active duty, reserve, civilian and auxiliarists alike--deliver premier 
service to the public. The Coast Guard is an adaptable, responsive, 
military force of maritime professionals whose broad legal authorities, 
assets, geographic diversity, and expansive partnerships provide a 
persistent presence in the inland waters, ports, coastal regions, and 
far offshore areas of operations. This presence, coupled with over 2 
centuries of experience as the Nation's maritime first responder, 
provides tremendous value and service to the public. As such, the Coast 
Guard shapes National maritime policy, including in the Caribbean 
region, to protect the Nation's interests.
  overview of cbp operations in puerto rico/u.s. virgin islands (usvi)
    In fiscal year 2011, CBP processed approximately 4.8 million 
travelers and more than 109,000 containers through our ports of entry 
in the Caribbean. The San Juan Field Office processed over $40 billion 
in trade, an increase of more than 15 percent from the prior year. 
During this time, CBP officers arrested 345 people wanted for crimes, 
including murder, rape, assault, and robbery, and denied entry to 
nearly 3,000 people at Puerto Rico's ports of entry. The San Juan Field 
Office has 626 employees across the region: 318 CBP Officers, 76 
Agriculture Specialists, and 111 support positions are assigned to 
Puerto Rico; and 80 CBP Officers, 11 Agriculture Specialists, and 30 
support positions are located in the U.S. Virgin Islands.
    CBP's Caribbean Air and Marine Branch (CAMB) plays a major role in 
deterring illegal activity in the region through the coordinated use of 
integrated air and marine forces to detect, interdict, and prevent the 
unlawful movement of people, illegal drugs, and other contraband in the 
area. The CAMB is headquartered in Aguadilla, Puerto Rico and possesses 
six aviation assets, including two AS-350 Light Enforcement 
Helicopters, two UH-60 Medium-Lift Helicopters, and two DeHavilland 
DHC-8 Maritime Patrol Aircraft, which are state-of-the-art aircraft 
used for detecting vessels. Also assigned to CAMB are four marine units 
located in Fajardo, Ponce, and Mayaguez, Puerto Rico and St. Thomas, 
U.S. Virgin Islands. The marine units have 10 Midnight Express 
interceptors, which are the fastest, most capable law enforcement 
vessels in the world, and 5 additional support vessels. The 60 
enforcement personnel of the CAMB seized approximately 10,250 pounds of 
narcotics and $2.1 million in currency in fiscal year 2011.
    The Caribbean Air and Marine Operations Center (CAMOC), a sub-unit 
of the CBP's Air and Marine Operations Center (AMOC), is also located 
in Puerto Rico. CAMOC is a state-of-the-art law enforcement radar 
surveillance center designed to counter the on-going threat of airborne 
drug smuggling and provides detection, monitoring, and coordination 
between CAMB assets and other Federal and local authorities.
    Ramey Sector Border Patrol agents patrol coastal areas in Puerto 
Rico and work to prevent, deter, and interdict illegal aliens and 
narcotics. During fiscal year 2011, Border Patrol agents apprehended 
642 undocumented aliens and seized more than 2,180 pounds of narcotics 
between the ports of entry. The Sector also has a full-time Prosecution 
Unit, a full-time Public Affairs Office, a robust Intelligence Unit, 
and five canine teams deployed in Puerto Rico. These canine teams 
assist the San Juan Field Office with container checks and ferry 
operations and are also deployed to support the local law enforcement 
community.
    CBP also supports the six municipalities in Puerto Rico in 
developing operational plans and preparing funding requests for 
Operation Stonegarden grants. Utilizing the resulting Operation 
Stonegarden grants, these municipalities--Aguadilla, Cabo Rojo, Lajas, 
Ponce, Yabucoa, and Ceiba--work in unison with Border Patrol agents to 
fuse knowledge, experience, assets, and jurisdictional authorities in 
an effort to develop actionable intelligence, deter illegal activities, 
and help protect our coastal communities.
    CBP continues its efforts to prevent narcotics and unreported 
currency from entering Puerto Rico and the U.S. Virgin Islands. 
Collectively, CBP officers and agents seized more than 19,000 pounds of 
narcotics with an estimated street value of approximately $140 million, 
and seized more than $7 million in unreported currency in fiscal year 
2011.
               overview of ice resources in the caribbean
    ICE currently has seven domestic offices in Puerto Rico and the 
U.S. Virgin Islands; these include the HSI Special Agent in Charge 
(SAC) office in San Juan (SAC San Juan); and the subsidiary Resident 
Agent in Charge (RAC) offices in Fajardo, Arecibo, Ponce, Mayaguez, St. 
Thomas, and St. Croix. The HSI Caribbean Attache, physically located in 
Miami, Florida is responsible for overseeing HSI Assistant Attache 
offices in the Nassau, Bahamas; Kingston, Jamaica; and Santo Domingo, 
Dominican Republic. These offices work with HSI domestic offices and 
foreign counterparts to combat transnational criminal organizations 
through capacity building, information sharing, and joint 
investigations. ICE's presence in the region, in collaboration with 
other law enforcement partners, has directly resulted in more than 
1,000 criminal arrests, and the seizures of more than 1,200 firearms, 
25,500 pounds of narcotics, and nearly $17 million in illicit proceeds 
from October 2010 through June 2012.
         overview of coast guard operations in puerto rico/usvi
    The Coast Guard and its interagency partners have seen tremendous 
interdiction successes over the past several years in the Caribbean 
Transit Zone. The Coast Guard interdicted and seized over 198,000 lbs 
of contraband (cocaine and marijuana) in fiscal year 2011, and 181,000 
lbs thus far in fiscal year 2012.
    The Coast Guard interdicted three Self-Propelled Semi Submersible 
(SPSS) vessels in the Caribbean Sea in fiscal year 2011 and another two 
in the first two quarters of fiscal year 2012. Though not present in 
the same numbers as go-fasts, the SPSS and Fully Submersible Vessels 
(FSV) are potentially an even more insidious threat to the security of 
the United States for two reasons: (1) Their large, up-to-10-ton 
payload and (2) the extraordinary difficulty of detecting these vessels 
at sea. This makes them a dangerous drug conveyance that could 
potentially be adapted for transporting other more serious security 
threats to the United States.
    The Caribbean has many areas of shallow water with islands 
scattered throughout the different transit routes. To prevent drug 
traffickers from retrieving their illicit cargo after scuttling, the 
Coast Guard led an interagency response to recover contraband from two 
of the scuttled SPSS vessels. The other SPSS vessels had been scuttled 
in waters too deep to safely conduct dive operations. This interagency 
and international effort led to the recovery of over 12 metric tons of 
cocaine.
    The foresight and wisdom of the U.S. Congress deserves a note of 
thanks for enacting 18 USC  2285, the Drug Trafficking Vessel 
Interdiction Act of 2008, which made the mere operation of these 
stateless vessels in international waters a crime. This has greatly 
helped interdiction efforts whereby law enforcement authorities no 
longer need to recover contraband in order to affect successful arrests 
and prosecutions.
    Since 1980, the Coast Guard has interdicted over 364,000 migrants 
at sea. The majority of migrant interdictions occur in the Florida 
Straits, and Windward and Mona Passages. The Coast Guard interdicted 
2,474 undocumented migrants who attempted to enter the United States 
via maritime routes during fiscal year 2011. This statistic represents 
an 18 percent increase in interdictions when compared with fiscal year 
2010 (2,088) and a 29 percent decrease in interdictions when compared 
with fiscal year 2009 (3,467). The Coast Guard interdicted 796 
undocumented migrants in the maritime domain in the first quarter of 
fiscal year 2012, which is more than the numbers interdicted during the 
first quarters of fiscal years 2011 (410) and 2010 (188), and less than 
the number interdicted during the first quarter of fiscal year 2009 
(1,062).
                  international/bi-lateral agreements
    The Coast Guard maintains 45 maritime bi-lateral law enforcement 
agreements with partner nations, which enable the Coast Guard to 
coordinate with partner nations and more effectively operate forward-
deployed boats, cutters, aircraft, and personnel to deter and counter 
threats as close to their origin as possible. Each bilateral agreement 
is independently negotiated but follows a standard framework; elements 
may include: Ship boarding; ship rider; pursuit; entry to investigate; 
over-flight; order to land; and international maritime interdiction 
support. These agreements also enable the Coast Guard to assist partner 
nations in exercising their span of control and maritime domain 
awareness of their waters. Migrant bilateral agreements include an 
agreement with the Dominican Republic, the Comprehensive Maritime 
Agreement with the Bahamas, and the Migrant Accords with Cuba.
    The Coast Guard-sponsored Multilateral Maritime Counter Drug Summit 
focuses on strengthening international partnerships and disrupting 
illicit drug trafficking and associated violence in the transit zone. 
The Summit is geared towards Western Caribbean countries, with 
international participation representing 10 partner nations in Central 
and South America.
    In the Eastern Caribbean, the Caribbean Law Enforcement and 
Intelligence Council facilitates communication, information sharing, 
law enforcement operations planning, and interoperability amongst 
participating international countries (United Kingdom, France, and the 
Netherlands). It serves to enable face-to-face interaction between key 
local, Federal, and international law enforcement and intelligence 
organizations throughout the Caribbean region.
    The Coast Guard provides international training and education 
through resident schools and ``on-the-job training'' at operational 
units in the United States, and through Mobile Education and Training 
Teams deployed to host counties. Approximately 60 formal resident 
courses and 11 on-the-job training courses are open for international 
military student attendance. The Coast Guard courses are developed and 
conducted to meet mission requirements and are intended to improve 
performance. Exportable training is one of the Coast Guard's most 
versatile and cost-effective international training tools, providing 
training to more than 2,000 international students in approximately 60 
countries each year. The Coast Guard delivers a complete package of 
beginning, intermediate, or advanced training to units, small groups, 
or larger multi-agency audiences. All of these training and education 
outreach activities result in participants being more capable partners 
in maritime law enforcement, marine safety and environmental 
protection, small boat operation and maintenance, search-and-rescue 
missions, and port security and infrastructure development for 
countries with waterway law enforcement programs.
                         collaborative efforts
    In addition to its operational presence in Puerto Rico and the U.S. 
Virgin Islands, DHS has increased its collaboration with Federal, 
State, local, and international partners to arrest individuals and 
target criminal organizations that pose a threat to our communities. 
This collaboration has resulted in successful operations at and beyond 
our borders. Collaborative efforts such as the Caribbean Border 
Interagency Group (CBIG) have proven to be an effective force 
multiplier by coordinating joint planning and execution of operations 
among CBP, ICE, USCG, Department of Justice (DOJ), the Office of 
National Drug Control Policy's High Intensity Drug Trafficking Area 
program (HIDTA), and Puerto Rico's Fuerzas Unidas de Rapida Accion 
(FURA) partners. Through these coordinated efforts, DHS has reduced 
illegal migrant activity coming into Puerto Rico via the Mona Passage 
by 90 percent over the last 5 years, and is successfully mitigating the 
smuggling threat along Puerto Rico's western coast.
Operation Caribbean Resilience
    It is ICE's assessment that Puerto Rico is a primary Caribbean drug 
transshipment point from South America to the U.S. mainland. In direct 
response to the threat of criminal organizations, related violence, and 
its impact on the quality of life for those residing in Puerto Rico and 
the U.S. Virgin Islands, and in response to recommendations contained 
in the President's Report on Puerto Rico's Status, HSI initiated 
Operation Caribbean Resilience in fiscal year 2012. This operation 
worked in collaboration with CBP, ATF, Puerto Rico Police Department, 
San Juan Municipal Police has focused resources toward Puerto Rico in 
an effort to concentrate on complex transnational criminal 
organizations. The operation, which began with a 90-day surge and has 
continued with the temporary assignment of agents from around the 
country, seeks to identify, disrupt, and dismantle drug trafficking 
organizations that destabilize Caribbean nations and territories and 
threaten regional security.
    As of June 19, 2012, Operation Caribbean Resilience has resulted in 
a total of 287 arrests as well as the seizure of nearly 181 firearms, 
6,340 rounds of ammunition, and $91,630 in illicit proceeds.
Caribbean Corridor Initiative
    Operation Caribbean Corridor is a Puerto Rico-based multi-agency 
task force that consists of HSI, the United States Attorney's Office 
for the District of Puerto Rico, the Office of National Drug Control 
Policy's High Intensity Drug Trafficking Areas program, CBP, DEA, FBI, 
the USCG Investigative Service, Joint Interagency Task Force-South, and 
State and local law enforcement agencies. Caribbean Corridor is a 
comprehensive intelligence-driven initiative focusing on South American 
drug-trafficking and money-laundering organizations responsible for 
transporting multi-ton loads of cocaine through the Eastern Caribbean 
en route to the United States and Europe.
    One example of an investigation under Operation Caribbean Corridor 
is a recent SAC San Juan investigation into a large-scale narcotics 
smuggling organization operating between the Dominican Republic and 
Puerto Rico. To date, this investigation--known as Operation Wild 
Surf--has resulted in 36 arrests and the seizure of approximately 1,800 
kilograms of cocaine, 26 kilograms of heroin, $1.8 million dollars, and 
14 vessels.
Border Enforcement Security Task Forces
    HSI has partnered with Federal, State, local, and foreign law 
enforcement counterparts to create the Border Enforcement Security Task 
Force (BEST), a series of multi-agency teams developed to identify, 
disrupt, and dismantle criminal organizations posing significant 
threats to border security. The BEST program operates in 31 locations 
throughout the United States and Mexico. BEST leverages over 750 
Federal, State, local, and foreign law enforcement agents and officers 
representing over 100 law enforcement agencies. BEST also provides a 
co-located platform to conduct intelligence-driven investigations. In 
fiscal year 2011, BESTs made nearly 2,300 criminal arrests and more 
than 1,100 administrative arrests. Meanwhile, Federal prosecutors 
obtained nearly 1,400 indictments and 1,200 convictions in BEST-
investigated cases.
    In October 2011, HSI stood up the San Juan BEST, which includes 
partners from CBP, Puerto Rico Police Department, USCG, ATF, San Juan 
Police Department, the Colombian National Police, Puerto Rico Ports 
Authority, and Puerto Rico's Department of Treasury, all working 
collaboratively to share information and expertise in cooperative 
investigations. In February 2012, the San Juan BEST seized 109 
kilograms of cocaine and contraband with an estimated price per 
kilogram of $2.4 million dollars during an inspection of incoming 
containers on board a motor vessel arriving from the Dominican 
Republic. During the inspection of one of the containers, which was 
manifested as carrying aluminum construction materials, CBP officers 
found four duffle bags with a total of 101 bricks of cocaine. The 
contraband was turned over to HSI for further investigation. More 
recently, the San Juan BEST seized 6 kilograms of cocaine during a 
routine CBP inspection of a passenger vehicle that arrived from the 
Dominican Republic on-board a vessel. The vehicle and contraband were 
turned over to HSI, which arrested three individuals allegedly involved 
in the drug-smuggling venture.
Prosecution Partnerships
    In addition to enhancing partnerships with local law enforcement, 
DHS's relationship with the Puerto Rico U.S. Attorney's Office is an 
instrumental component of our efforts to reduce the smuggling threat in 
the Caribbean area. The U.S. Attorney has dedicated an Immigration Unit 
to support enforcement operations, which has assisted in reducing the 
number of re-apprehended undocumented immigrants. The Immigration Unit 
consists of an Assistant U.S. Attorney, two Special Assistant U.S. 
Attorneys (one from ICE and one from USCG), and a full-time paralegal 
specialist provided by CBP's Office of Border Patrol. The creation of 
the Immigration Unit in October 2006 has resulted in a greater number 
of immigration cases accepted for prosecution (and more quickly), which 
has had a deterrent effect. During fiscal year 2011, Ramey Sector 
Border Patrol agents had more than 150 cases accepted for criminal 
prosecution which included charges of illegal entry, re-entry after 
deportation, failure to heave to, and presenting false documentation. 
So far in fiscal year 2012, agents have presented 131 cases that were 
accepted by the U.S. Attorney's Office for criminal prosecution.
Puerto Rico Working Group
    In response to a request from the Governor of Puerto Rico in July 
of last year, CBP created a Puerto Rico Work Group to look for ways 
that CBP could continue to make and sustain gains in border security 
with its existing resources. The work group identified three areas that 
provided the greatest force multiplier capability--Intelligence, Joint 
Operations, and deployment of CBP resources. The efforts of the work 
group members have resulted in:
  <bullet> Increased collaboration and joint operations within CBP, as 
        well as with external law enforcement partners, to address the 
        threat in the eastern side of the island;
  <bullet> Increased collaboration with the Puerto Rico Police 
        Department authorities on enforcement efforts;
  <bullet> Increased coordination with municipalities for the 
        application of Federal funding; and
  <bullet> Increased CBP capabilities, such as the cross-training of 
        OFO personnel to support marine operations, and additional 
        force presence for special operations and enhanced enforcement 
        efforts.
White House Task Force
    In March 2011, the President's Task Force on Puerto Rico's Status 
recommended the convening of a working group to begin a formal 
interagency process of coordination and collaboration regarding Puerto 
Rico's security and safety. In response, the Puerto Rico Interagency 
Public Safety Working Group (PSWG) was convened. The PSWG, co-chaired 
by DOJ Associate Attorney General Tony West and DHS Assistant Secretary 
for Intergovernmental Affairs Betsy Markey, is tasked with examining 
the economic and safety/security threats facing Puerto Rico and 
developing a plan to address those challenges from an interagency 
perspective. Since October 2011, CBP has been an active participant in 
the PSWG. In addition to providing advice and expertise on CBP-related 
issues, CBP briefs the PSWG on CBP operations, collaborative efforts, 
and potential concepts for the PSWG to pursue.
CBP/USCG Cargo Container Inspections
    In April 2012, by leveraging associated USCG and CBP border search 
authorities, CBP initiated a multi-jurisdictional integrated law 
enforcement effort between CBP, HSI, USCG, and Puerto Rico State and 
local law enforcement personnel to interdict drugs and other contraband 
by conducting inspections of domestic containers bound for CONUS. Using 
collective intelligence and targeting assets from all law enforcement 
partners, sea cargo destined for CONUS are selected and scanned using 
CBP large-scale NII equipment. When the NII image reveals anomalies 
within the contents of the container, the container and contents are 
checked by canine units and physically inspected by officers in an 
effort to detect and deter criminal organizations from transporting 
illegal contraband to CONUS. Upon completion of these operations, a 
detailed report with findings is forwarded to CONUS ports where the 
vessel is scheduled to arrive from Puerto Rico, including Houston, 
Jacksonville, Newark, and Philadelphia. These port communities 
subsequently conduct inspections of the arriving vessels and cargo 
using all available resources.
    A recent success occurred on May 15, 2012, when the Anti-Terrorism 
and Contraband Enforcement Team (A-TCET) at the Philadelphia Seaport 
observed anomalies on an inbound vehicle from Puerto Rico utilizing 
large-scale inspection equipment. A subsequent physical inspection of 
the automobile by CBP Officers revealed packages containing a total of 
10 kilograms of cocaine.
                               conclusion
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of DHS. We are committed to providing our front-line personnel with the 
tools they need to effectively achieve their primary mission of 
securing America's borders. We look forward to answering any questions 
you may have at this time.

    Mr. McCaul. With that, I now recognize myself for 5 minutes 
for questions.
    As we heard from the Governor, and perhaps I will start 
with you, General, we heard from the Governor of the lack of a 
strategy or a plan for the Caribbean, and then the closing of 
the Air and Marine Office in Puerto Rico. Can you enlighten us 
on this?
    General Kostelnik. Well, I mentioned an area of strategy. I 
think you all are aware that the Caribbean Border Interagency 
Group has been formed by not only the representatives of the 
colleagues here at the table but others in the host Nation, and 
that has provided I think a fairly substantial improvement in 
local strategy associated with the combined assets of the 
Federal Government and the State of Puerto Rico you know there 
in the western Caribbean. The broader area in the deep transit 
zone and the approaches from South America and central America 
into the United States and also into the Caribbean, east and 
west, JIATF-South has a substantial approach to strategy. The 
broader area and combining all of those into one area, that is 
probably a focus area that would need some work.
    In regards to the closure of our facility, I think the 
committee is well aware that some of the added infrastructure 
in terms of the marine capabilities of U.S. Customs and Border 
Protection was enhanced in years passed, and at that time, it 
was enhanced using funds out of the Puerto Rican trust fund. As 
a result of the way that it was done at that time by law, it 
limits investments in our marine capability to the trust funds.
    So, in 2011, as a result of a further widespread, you know, 
financial issue, not only in Puerto Rico, obviously and this 
government and governments across the world's stage, these are 
very difficult financial times and the trust fund did not 
deliver in ways that it had in the past. So the support from 
the trust fund for various agencies were reduced at that time 
period and resulted in a shortfall in our marine operation that 
we couldn't cover, we couldn't cover by other appropriated 
funds, and we didn't have the resources.
    So as a result of that, we looked at the four operational 
marine branches we had on the island itself. We looked at the 
least productive of the four branches, retained the most 
important branches of Fajardo, Ponce, and Mayaguez, protecting 
the east and west and southern approaches to the island, and we 
did close just the marine branch in San Juan harbor. That 
resulted in the removal of about five agents, but the marine 
craft that were associated with that branch were redistributed 
to other branches within the island complex and were not 
removed.
    Mr. McCaul. What can we do to help restore those funds to 
the Puerto Rican trust fund?
    General Kostelnik. Well, I think--I am not an expert on the 
Puerto Rican trust fund to fund only air and marine equity, but 
also the larger office of field operation equities and perhaps 
ICE as well. It is a fairly substantial boost. As a partnership 
with the territory for many years, it has been invested in 
Federal entities to bring capabilities to the island that would 
not be indigenous to the State. I think it has been a very 
successful partnership.
    I believe the trust fund equities are delivered by fees 
associated with trade and travel in the islands, so part of 
that is driven by the economy of the day. As the economy and 
trade improves, and I think those things are increasing as we 
speak, the trust fund will recover.
    I think the Resident Commissioner Pierluisi has introduced 
some legislation to give us the flexibility perhaps of funding 
other Federal equities in addition to the trust fund. That 
would certainly give us more flexibility to augment with other 
appropriations, but at the end of the day, there are reductions 
across the board in most of our infrastructures. We are in 
times of reduced operations.
    Mr. McCaul. If I can just ask, the Governor talked about a 
memorandum of understanding with the Federal Government and 
that that was not being fully complied with. Can any of the 
witnesses speak to that issue?
    General Kostelnik. I think he was referring to the 
forfeiture fund as well. So the Puerto Rican trust fund I think 
is delivering consistent with the memorandums. There are other 
memorandums that deal with material goods, boats, aircraft, 
narcotics, weapons, cash, that are going to seize by a 
combination of State and Federal and law enforcement agencies 
in the territory. Those go into a Federal forfeiture fund. I am 
not personally familiar with that MOU, but I am sure there is a 
document that specifies what the arrangements will be.
    Mr. McCaul. About 25 seconds. Does anybody have any comment 
on that?
    Ms. Ayala. Yes, sir. If I could comment. We have almost 
shared approximately $12 million, where we have either 
recommended or actually asset-shared with the Puerto Rico 
government, and that is in funds, equipment, and so forth. 
Those are based on local agreements with different departments 
of police. Some of those funds have to go through--obviously, 
the Treasury Asset Forfeiture Fund in order for them to be 
fully forfeited, and that takes some time. So there is some 
money pending, but we constantly live up to ensuring that they 
have all of the asset-sharing opportunities they have and that 
is why we have nearly 80 task force officers assigned to four 
task forces in the Puerto Rico area and San Juan.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the Ranking Member.
    Mr. Keating. Thank you very much, Mr. Chairman. 
Representative Davis asked the Governor a good question. He 
asked him, you know: Where would the resources come from? Would 
it be additional or would it be--and his answer was and you 
heard it was that the resources and money can come from, 
``those used, underused somewhere else.'' Those used, those 
underused somewhere else. Now you are the four agencies that 
the somewhere else would come from. Can you tell me quickly, 
given the time constraints, can you tell me where they are 
underused somewhere else? The resources?
    Start with you, Admiral.
    Admiral Lee. Well, thank you for that question, sir.
    I really can't pull it out right now where I can think of a 
place where our resources are underused that we could deploy to 
Puerto Rico. What I can tell you is that where we are applying 
our resources is as close to the shipment point down in the 
transit zone as possible.
    We believe that our strategy of intercepting the cocaine 
destined for Hispaniola, which creates secondary flow over to 
the island of Puerto Rico, is best intercepted where it is 
coming out of the gate, where we can get it in bulk before it 
gets to the mainland, where it is parceled up into smaller 
packages and becomes a real problem that the Governor is 
wrestling with right now, Sir.
    Mr. Keating. Ms. Ayala, could you tell us where in your 
department the ``underused somewhere else'' is?
    Admiral Lee. For the record, sir, I cannot tell you where 
we have got anything underused.
    Ms. Ayala. I would say the same, but I would say that in 
order to try to address this threat, we have surged at least 7 
people since January to the San Juan area and to assist the 
Puerto Rico Police Department in identifying violent gang 
members and seizing weapons from the street. Obviously, this is 
a temporary situation, but we do have several, at least 10 to 
14 people that are in the pipeline identified to come on to be 
hired on a permanent basis. We are just waiting for approval of 
the Puerto Rico trust fund budget for fiscal 2013 and 2014 to 
make that a reality.
    Mr. Keating. In terms of Customs and Border Patrol, can you 
tell me where the ``underutilized somewhere else'' is?
    Mr. McAleenan. Good late morning, Ranking Member Keating. 
We don't have any underutilized locations under-resourced--
over-resourced locations at this point. Our workload staffing 
model governs how we deploy our resources, and that is based on 
both the volume and the risk of each port of entry Nationally. 
We have, in Puerto Rico, a significant volume of passengers and 
trade coming through and also threats as described by the 
Governor and Resident Commissioner Pierluisi.
    Mr. Keating. So we are 0 for 3. Could I ask Mr. Kostelnik? 
Is there ``underused'' somewhere else in your department?
    General Kostelnik. No, sir. Ours would be the same. How we 
lay ours down Nationally is prioritization and adjust those 
based on mission need.
    Mr. Keating. So I would suggest, given the answers of our 
panel, there is no ``underused somewhere else,'' and the answer 
might be more allocation of overall resources, and that is the 
answer, that is the only answer I am left with. We reduced 
those things in budgets.
    So there is my conclusion. I wanted to follow up on that. I 
will yield back the rest of my time.
    Mr. McCaul. I thank the gentleman.
    Mr. Long from Missouri is recognized.
    Mr. Long. Thank you, Mr. Chairman, and thank you all for 
being here today and for your testimony.
    Admiral Lee, talking about underused resources, which you 
say there are none; is that correct?
    Admiral Lee. None that I can think of, sir.
    Mr. Long. How about manpower? Are you short-handed or not?
    Admiral Lee. Sir, we are a very lean organization and 
growing leaner.
    Mr. Long. Do you think you could use $10 million?
    Admiral Lee. We could use, certainly, sir.
    Mr. Long. If we hadn't have spent $10 million trying to 
figure out if a professional baseball player used steroids or 
not, you could have had it. So I am sorry to report you can't 
have it.
    What on the steroids--not steroids, excuse me, on the 
submersibles--I am back on steroids now. On the submersibles, 
how do you detect those? Do you have the capability you need to 
detect those?
    Admiral Lee. That is an excellent question, sir. Right now, 
the semi-submersibles that we are detecting and interdicting 
today is an outgrowth of the pressure we have put on the--on 
the cartels and the TCOs in their attempts to get the drugs in. 
It is an innovative approach. We, the best, the best technology 
that we have right now is our overflight, our aerial 
surveillance. That and the new radars that we are putting on 
our new National response cutter has enabled us to see further 
than we ever have before. The fact of the matter is, though, is 
these organizations emerge into the fully submersible 
technology, which we know they already have the capability of 
doing. We have no method of detecting them once they become 
subsurface.
    Mr. Long. How can that be? It is not a stealth submarine, I 
wouldn't assume.
    Admiral Lee. No, sir. We just don't have the technology 
such as that that the Navy has to be able to see what is 
underneath the surface. When it is on the surface----
    Mr. Long. The Navy won't assist you in this or can't assist 
you?
    Admiral Lee. Yes, sir. We work with the Navy routinely, 
especially in the JIATF-South region.
    Mr. Long. So you are able to track them although it might 
not be your agency proper, correct or not?
    Admiral Lee. When the appropriate Naval resources are in 
that area of operations, some of them do have that capability, 
yes, sir.
    Mr. Long. Okay. I guess that is my only question on it.
    Thank you. I yield back.
    Mr. McCaul. Thank you for the question. I was planning to 
ask that myself, and my time ran out. But just so I understand, 
you cannot detect the submersibles once they are under the 
water?
    Admiral Lee. When they go subsurface, no, sir.
    Mr. McCaul. But the Navy can?
    Admiral Lee. With those vessels that they have with the 
technology that allows them to do that.
    Mr. McCaul. I won't ask you how deep you can detect it with 
the Navy because that would give information.
    Admiral Lee. We would be happy to give you a more 
appropriate brief in a more appropriate setting on that.
    Mr. McCaul. Precisely. Thank you.
    The Chairman now recognizes the gentlelady from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and welcome to 
the panelists. I have perhaps maybe two questions.
    First one for Rear Admiral Lee. A few weeks ago I mentioned 
the 1.4 kilos of cocaine that was picked up by the Coast Guard, 
but it was a fast boat smuggling those drugs into the United 
States that was observed as it approached St. Croix. The boat 
crew, when they became aware of detection dumped the cocaine 
and sped away, but they eluded capture because we don't have 
the necessary air and sea resources of the U.S. Coast Guard and 
Border Patrol in the Territory. The USVI is arguably at a 
greater disadvantage than Puerto Rico because we have to rely 
on resources coming from Puerto Rico, which is already 
complaining that they don't have enough resources for its 
interdiction efforts. Are there any plans in place to increase 
the resources in the U.S. Virgin Islands, and particularly are 
there any plans to increase the fast boat kinds of assets in 
Puerto Rico and the U.S. Virgin Islands?
    Admiral Lee. Thank you for the question, ma'am.
    First off, we do have plans to replace the 6 aging 110-foot 
patrol boats that we have stationed in Puerto Rico at the time, 
which covers that whole area in Puerto Rico and the U.S. Virgin 
Islands. We are going to--of the first 18 fast response cutters 
that are going to be delivered, 6 of them will eventually be 
going to Puerto Rico as soon as we can get the facilities ready 
to receive them.
    With regard to the smaller boats that you referred to, the 
interceptors, they are already on scene. We have no current 
plans to increase the number of interceptors in that particular 
area, ma'am.
    Mrs. Christensen. Okay. Thank you.
    Mr. McAleenan, 4 years ago, Congressman Thompson when he 
was Chair, took a Congressional delegation of the Homeland 
Security Committee on a fact-finding mission to the U.S. Virgin 
Islands to see first-hand what our issues were and to hear from 
our local as well as the Federal law enforcement officers 
regarding how--regarding the flow of illegal guns, drugs, and 
immigrants into the U.S. Virgin Islands, and following that 
visit, he and the committee urged CBP to start up a Border 
Patrol unit in the U.S. Virgin Islands. To date, the problems 
have worsened, and we still don't have a Border Patrol unit 
dedicated to the U.S. Virgin Islands.
    So given the current situation, does CBP plan to place a 
unit in the USVI? If not, why? Maybe in your answer you could 
tell us what you have been doing since that time.
    Mr. McAleenan. I can offer, Resident Commissioner, to get 
back to you on that. I don't have the current plans for the 
Border Patrol in front of me. I am sorry.
    Mrs. Christensen. Okay. Just in closing, all of the Federal 
agencies are based in Puerto Rico. All of the Federal law 
enforcement agencies are based in Puerto Rico. We have heard 
the monumental challenges that Puerto Rico has with drug 
trafficking and gun violence. So, please, I am begging and 
pleading with you to make sure that we have enough assets so 
that the Virgin Islands does not--ensure that the Virgin 
Islands gets the coverage that we need as well. That is to 
everyone.
    Thank you, Mr. Chairman.
    Mr. McCaul. Thank you.
    The Chairman now recognizes Mr. Pierluisi, with the caution 
that we have 8 minutes left on the vote.
    Mr. Pierluisi. I see. I have one question for all the 
panelists, all the witnesses. I please ask you to be brief, 
because then I have a specific question for Admiral Lee. My 
first question is when your agencies allocate resources and 
personnel among U.S. jurisdictions, do you view Puerto Rico and 
the USVI in the exact same way that you view the States? Put 
differently, can you state for the record whether you 
preference U.S. States over U.S. territories in any way or 
whether you treat them as absolutely the same?
    Ms. Ayala. No preference. We treat them absolutely the 
same.
    Mr. McAleenan. While the funding mechanisms are different, 
as we discussed, we treat them absolutely the same in terms of 
operational need.
    General Kostelnik. They are the same. But obviously, there 
are priorities. You talked about priorities in your opening 
remarks. Obviously, the Southwest Border has been a priority. 
We are working on various areas. Basically, those priorities 
are determined by need. Adjustments in our resources are made 
annually to meet those threats.
    Admiral Lee. Yes, sir, we treat them the same, too. But we 
allocate our resources based on where the primary threat is. 
That is where we deploy our resources to.
    Mr. Pierluisi. Thank you.
    Admiral Lee, between January 2009 and August 2011, Coast 
Guard sector San Juan interdicted far more drugs than sector 
Miami, which interdicted no cocaine, and sector Key West, which 
interdicted no drugs of any type. Yet the Coast Guard devoted 
significantly more maritime surveillance hours to Miami and Key 
West than to Puerto Rico. This is not surprising when one 
considers that the Coast Guard has only four helicopters in 
Puerto Rico, which is less than Miami, and has no fixed-wing 
surveillance aircraft stationed on the island. Rather, District 
Seven has C130s stationed in Clearwater, Florida, and five HC-
144s stationed in Miami. Late last year, the District Seven 
commander was quoted in an official Coast Guard publication as 
saying that Miami is going to be provided with two additional 
HC-144s, for a total of 7, and that he hopes, I am quoting, to 
put some in Puerto Rico, but only after they have been fielded 
to other Coast Guard districts. In addition, when it comes to 
boats, the Coast Guard is replacing its Island-class cutters 
with better Sentinel-class cutters. According to the district 
commander, the first 6 new cutters are scheduled to be assigned 
to Miami, the next 6 to Key West, and the Coast Guard will, I 
am quoting, eventually assign another 6 to Puerto Rico, pending 
Congressional approval and funding.
    Admiral, based on all of this, and I am quoting official 
documents, is it your testimony that Puerto Rico is being 
adequately resourced by the Coast Guard both as an absolute 
matter and relative to other sectors within district 7?
    Admiral Lee. That is a very good question, sir, and I hope 
I can answer it adequately for you. With regard to where we put 
our forces, we put them where the greatest threat exists. In 
this particular case, it is about geography. There is more than 
just a drug threat in the Straits of Florida. As you know, we 
also have a large, a very huge migrant interdiction 
responsibility there also. All of these, combined with the 
search-and-rescue responsibilities we have, the other adjacent 
law enforcement responsibilities, compels us to have the force 
laydown that we currently have. It is not at the detriment of 
Puerto Rico. We are pushing, of those first 18 FRCs that you 
are referring to, 6 of them are going to Puerto Rico. In fiscal 
year 2014, as soon as we can have the piers and the facilities 
configured for them, they will arrive. We also are currently 
providing fixed-wing capability in the form of a 144 CASA. It 
is on scene now right in Puerto Rico. So we are giving you the 
four helicopters plus that overarching MPA. We desire to 
continue to resource that.
    Mr. Pierluisi. I appreciate the answer.
    One last comment, Mr. Chairman.
    Mr. McCaul. If you could keep it very brief. We have 3 
minutes left.
    Mr. Pierluisi. Okay. So the last comment I make is it is 
allocating resources. That is what we are saying. You talk 
about the threat, and I respect that. But I know even if you do 
not get more resources overall for your particular agencies, 
there has to be prioritizing here. We are facing a crisis. So 
we are asking for particular attention until we get back to 
normal levels.
    Mr. McCaul. Thank you. I thank the gentleman. I appreciate 
the testimony. We understand the limited resources you have and 
what you have to do with them. But we look forward to working 
with you to prioritize what we call the third border. So thanks 
for being here today. This committee stands adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
